OFFICE OF INSPECTOR GENERAL

  SEMIANNUAL REPORT

   TO THE CONGRESS





 October 1, 2007 - March 31, 2008

                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, USADF, IAF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 1	 -202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov



   Mail                  	 SAID OIG HOTLINE
                         U
                         P.O. Box 657
                         Washington, DC 20044-0657


U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
CONTENTS

Message from the Inspector General .....................................................................................v



Executive Summary ..................................................................................................................1



Summary of Results .................................................................................................................5


          Strategic Goal 1: Strengthen the economy, effectiveness, and efficiency

           of foreign assistance programs and operations .......................................................6


          Strategic Goal 2: Protect U.S. foreign assistance programs and operations 

          from fraud, waste, and abuse .....................................................................................15


          Strategic Goal 3: Continually improve OIG functions and operations ..............19



Appendices - Reporting Requirements ................................................................................23





                                                                                        SEMIANNUAL REPORT TO THE CONGRESS                iii
MESSAGE FROM THE
INSPECTOR GENERAL
I    am pleased to present the Semiannual Report to the
     Congress for the 6-month period ending March 31,
     2008. This report is issued in accordance with the
requirements of the Inspector General Act of 1978, as
amended, and specifically addresses our responsibilities
                                                           In addition to working toward improving USAID
                                                           programs and operations, we have a responsibility to
                                                           prevent fraud, waste, and abuse in foreign assistance
                                                           programs. Our investigators have worked diligently to
                                                           ensure that appropriate action is taken against those who
for the U.S. Agency for International Development          would illegally divert U.S. Government funds, which is
(USAID), the United States African Development             of increasing importance in an environment of limited
Foundation (USADF), and the Inter-American                 Federal resources.
Foundation (IAF).
                                                           Within OIG, we recognize that we must work to
Overall, the Office of Inspector General (OIG) issued      improve our own programs and initiatives by continually
203 audits and closed 44 investigations over the past 6    reexamining our strategies and goals and by taking
months.                                                    advantage of technologies that enable us to better
                                                           implement programs and respond to our stakeholders.
The efforts of our employees around the globe              Moreover, we consistently strive to align our priorities
demonstrate our commitment to improving foreign            to support the long-term goals of USAID in its joint
assistance programs, which are an essential component      foreign assistance efforts with the Department of State.
of the administration’s transformational diplomacy goals
in the advancement of sustainable development and          We look forward to working with Congress and our
global interests. The audits we have undertaken during     partners and stakeholders to continue to improve the
this reporting period have made recommendations            efficiency and effectiveness of U.S. foreign assistance
to improve worldwide programs that are key to              programs.
maintaining our national security; promoting democracy,
development, and economic stability; eradicating
epidemic diseases; and addressing environmental
conservation challenges. OIG audits have also included
recommendations to improve the infrastructure of
USAID systems and operations to increase the efficiency
of the work the Agency undertakes.




                                                                      Donald A. Gambatesa

                                                                      Inspector General





                                                                           SEMIANNUAL REPORT TO THE CONGRESS           v
EXECUTIVE SUMMARY

D        uring this reporting period, OIG completed
         audits and investigations involving the
         following program areas:
                                                             Who Commit, Threaten to Commit, or Support
                                                             Terrorism. One audit found that USAID
                                                             did not always comply with vetting and other
                                                             contract requirements when providing funds
                                                             to three groups that received media scrutiny:
Strategic Goal 1: Strengthen the economy,                    Al-Quds University, the Islamic University in
effectiveness, and efficiency of foreign                     Gaza, and American Near East Refugee Aid.
assistance programs and operations                           However, in the broader audit of procedures
                                                             carried out by USAID/West Bank and Gaza,
Under strategic goal 1, OIG focused on audits and
                                                             OIG found that the Agency had implemented
investigative work that involved terrorist financing;
                                                             policies, procedures, and controls to address
economic and alternative development programs in
                                                             these issues and was generally in compliance
Iraq, Afghanistan, Peru, Nigeria, Egypt, and Albania;
                                                             with the Executive Order.
the President’s Emergency Plan for AIDS Relief; the
President’s Malaria Initiative; and family planning      • 	 Community Stabilization in Iraq. In an audit of
requirements under the Tiahrt amendment, among               USAID’s $544 million Community Stabilization
others.                                                      Program, OIG uncovered challenges to the
                                                             program’s sustainability because of security
Some of the significant work OIG has accomplished this
                                                             concerns, evidence of potential fraud, and
reporting period includes the following:
                                                             economic effects on laborers. Among the
    • 	 Investigation Leads to Resignation of Foreign        recommendations were suspending a subset
        Service National (FSN). An OIG investigation         of Community Stabilization Program activities
        revealed that an FSN employee willfully              in Baghdad (with $8.5 million recommended
        provided false information regarding terrorist       to be put to better use), reviewing projects in
        vetting applications of a subcontractor that         other areas for evidence of potential fraud,
        was deemed ineligible for USAID funding. On          establishing procedures for the prompt
        several occasions the FSN, who was responsible       reporting of fraud, and improving data required
        for coordinating background checks of                for program oversight.
        prospective USAID funding recipients, provided
                                                         • 	 Alternative Development in Afghanistan. OIG
        the false information after multiple verbal
                                                             conducted two audits of programs intended
        and written warnings from USAID officials
                                                             to redirect employment opportunities in
        that there was derogatory information on this
                                                             Afghanistan from growing opium poppies to
        prospective subcontractor.
                                                             forms of licit livelihoods. While OIG found
    • 	 Investigation Leads to Indictment of                 that some progress is being made in these
        Organization Associated with Terrorists.             programs, recommendations for improvement
        OIG took part in a multiagency investigation         were made, such as better communicating
        that resulted in the indictment of members           success stories, including appropriate
        of an organization alleged to be engaged in          performance indicators and targets in
        transactions for the benefit of terrorists.          performance monitoring reports, and ensuring
                                                             timely review and approval of contractor
    • 	 Preventing Funding from Being Channeled to           work plans. Challenges to the success of the
        Terrorists and Their Supporters in West Bank         programs include increased insurgency, lack of
        and Gaza. OIG conducted two audits in West           effective eradication policies, and a breakdown
        Bank and Gaza involving USAID’s adherence            in rule of law.
        to Executive Order 13224, Blocking Property
        and Prohibiting Transactions with Persons



                                                                    SEMIANNUAL REPORT TO THE CONGRESS          1
        • 	 President’s Emergency Plan for AIDS Relief              • 	 Procurement Fraud Related to Iraq Contract.
            (PEPFAR). Two audits related to PEPFAR                      A grantee was arrested for awarding several
            revealed implementation and program                         competitive bid contracts to procure tents
            oversight problems. In one audit, OIG made                  to a single company in a contract worth over
            recommendations that USAID assess whether                   $750,000.
            resources in each country implementing the
            program are sufficient to support the workload          • 	 Termination of FSN. USAID terminated an
            and determine where partners would be best                  FSN who facilitated the employment of dozens
            managed (e.g., in Washington or at the country              of friends, family members, and third-party
            level), among other recommendations. An audit               contacts within the USAID mission. The
            in Zimbabwe found that better monitoring and                candidates that the project manager aided were
            data quality assessment procedures were needed,             told to lie on their employment applications,
            but that at least two performance indicators well           and the FSN offered to provide them with the
            exceeded expectations.                                      interview questions if they were selected for
                                                                        interviews.
        • 	 President’s Malaria Initiative (PMI). An audit
            of PMI in Angola found that progress was                • 	 Homeland Security Requirements. An OIG
            being made, with the mission meeting its                    audit found that USAID did not fully comply
            planned targets with respect to spraying houses             with personal identity verification requirements
            with insecticide and distributing bed nets to               of Homeland Security Presidential Directive
            vulnerable populations. Recommendations were                12 nor meet target dates to issue new Federal
            made to improve contract oversight procedures               identity credentials to current employees and
            to include finalizing a performance management              contractors.
            plan, performing data quality assessments,
            documenting site visits, and validating data.
                                                                Strategic Goal 3: Continually improve OIG
                                                                functions and operations
    Strategic Goal 2: Protect U.S. foreign
                                                                Under strategic goal 3, OIG continues to improve its
    assistance programs and operations from fraud,
                                                                management information systems, having implemented
    waste, and abuse
                                                                a new Audit Information Management System and a
    Audit and investigative activity under strategic goal 2     Criminal Law Enforcement Records System.
    included an unqualified opinion on USAID’s financial
                                                                These systems will improve efficiencies by (1) allowing
    statements; however, significant deficiencies were
                                                                domestic and overseas users to access real-time
    found. OIG made several recommendations to improve
                                                                information and produce ad hoc reports; (2) automating
    reporting procedures, provide accurate and up-to-date
                                                                case data for all administrative, civil, and criminal
    reporting codes, and implement internal controls to
                                                                investigations; and (3) providing for possible future
    prevent the authorizing of loan writeoffs before the
                                                                integration of systems.
    receipt of appropriations. Also included are important
    investigative and audit results noted below:

        • 	 Significant Investigation. An OIG investigation
            resulted in a $1 million bill for collection
            from a USAID contractor in a case involving
            procurement fraud.

        • 	 Arrest in Embezzlement Case. A relief official
            was arrested for embezzlement of nearly
            $215,000 in funds that were intended to provide
            support, training, and housing for
            South American citizens displaced by violence.



2    SEMIANNUAL REPORT TO THE CONGRESS
                      SUMMARY OF AUDITS CONDUCTED AND RESULTS
                                 AS OF MARCH 31, 2008

The data related to OIG’s audits and investigations is shown in the following charts:

                                                               NUMBER OF                  MONETARY
                    TYPE OF REPORT                               REPORTS            RECOMMENDATIONS ($)*
 FINANCIAL AUDITS


   USAID PROGRAMS AND OPERATIONS                                      1                        0
   FOUNDATIONS’ PROGRAMS AND OPERATIONS                               2                        0
   U.S.-BASED CONTRACTORS                                             43                    2,550,906
   U.S.-BASED GRANTEES                                                15                    7,821,669
        QUALITY CONTROL REVIEWS                                       1                        0
   FOREIGN-BASED ORGANIZATIONS                                       102                   18,666,167
        QUALITY CONTROL REVIEWS                                       6                        0
   ENTERPRISE FUNDS                                                   4                        0
 PERFORMANCE AUDITS

   USAID ECONOMY AND EFFICIENCY                                       27                   14,662,449
   FOUNDATIONS’ ECONOMY AND EFFICIENCY                                1                        0
 OTHER                                                                1                        0

                          TOTAL                                      203                   43,701,191

* Monetary recommendations include questioned costs and funds put to better use.





                                                                              SEMIANNUAL REPORT TO THE CONGRESS   3
                    SUMMARY OF INVESTIGATIVE ACTIVITY AND RESULTS

                                 AS OF MARCH 31, 2008

                                        USAID


                                      INVESTIGATIVE ACTIONS

            WORKLOAD                              CIVIL
            CASES OPENED                    50    REFERRALS                              1
            CASES CLOSED                    44    COMPLAINTS                             0
                                                  JUDGMENTS/RECOVERIES                   0
                                                  SETTLEMENTS                            0
            CRIMINAL                              ADMINISTRATIVE
            REFERRALS                       5     REPRIMANDS/DEMOTIONS                   0
            DECLINATIONS                    2     PERSONNEL SUSPENSIONS                  0
            ARRESTS                         4     RESIGNATIONS/TERMINATIONS              2
            INDICTMENTS                     6     OTHER ADMINISTRATIVE ACTIONS           1
            CONVICTIONS                     4     RECOVERIES                             1
            FINES                           0     SUSPENSIONS/DEBARMENTS                 0
            RESTITUTIONS                    0     SAVINGS                                0
                                                  SYSTEMIC CHANGES                       2




                                  INVESTIGATIVE RECOVERIES


                JUDICIAL RECOVERIES                                                 0
                ADMINISTRATIVE RECOVERIES                                 1,046,253.00
                SAVINGS                                                             0

                TOTAL INVESTIGATIVE SAVINGS/RECOVERIES                   1,046,253.00




4   SEMIANNUAL REPORT TO THE CONGRESS
SUMMARY OF RESULTS

O           IG’s purpose is to provide oversight,
            evaluation, and information about the
            programs and operations of its assigned
organizations so that the organizations may enhance the
integrity, efficiency, and effectiveness of their work, and
                                                              OIG achieved results under its own strategic goals 1
                                                              and 2 during this reporting period that align with the
                                                              following joint State/USAID goals and corresponding
                                                              priorities:

achieve greater results. To that end, OIG has established       • 	 State/USAID Goal: Achieving Peace and Security
three strategic goals to provide a framework for planning           Strategic Priorities: Counterterrorism; Stabilization
and executing work that will be of maximum benefit                  Operations and Defense Reform; and Counternarcotics.
to USAID, USADF, and IAF in realizing their strategic
                                                                • 	 State/USAID Goal: Investing in People

goals and addressing their priorities.
                                                                    Strategic Priority: Health

     Strategic Goal 1: Strengthen the economy,
                                                                • 	 State/USAID Goal: Economic Growth and 

     effectiveness, and efficiency of foreign assistance
                                                                    Prosperity

     programs and operations
                                                                    Strategic Priorities: Private Sector Economic 

     Strategic Goal 2: Protect U.S. foreign assistance              Opportunity and Competitiveness

     programs and operations from fraud, waste, and
                                                                • 	 State/USAID Goal: Strengthening Consular and
     abuse
                                                                    Management Capabilities
     Strategic Goal 3: Continually improve OIG                      Strategic Priorities: Planning and Accountability and
     functions and operations                                       Security

OIG has established an annual performance plan                Detail of these results are provided later in this
covering this reporting period that supports these goals      summary. Under OIG’s own strategic goal 3, results
and that ensures alignment with the overall foreign           were realized in terms of OIG employee safety and
assistance framework, goals, and priorities as identified     efficiency of operations through the use of automation.
in the U.S. Department of State and USAID Strategic
Plan for Fiscal Years 2007–2012 (State/USAID Strategic
Plan).

The State/USAID Strategic Plan identifies seven
strategic goals: Achieving Peace and Security;
Governing Justly and Democratically; Investing in
People; Economic Growth and Prosperity; Humanitarian
Assistance; International Understanding; and
Strengthening Consular and Management Capabilities.
Strategic priorities for each of these goals are also
identified in the State/USAID Strategic Plan.




                                                                              SEMIANNUAL REPORT TO THE CONGRESS             5
         Strategic Goal 1:
         Strengthen the economy, effectiveness, and efficiency of foreign assistance
         programs and operations



    T       he Inspector General Act of 1978, as amended,
            created OIG as an independent and objective
            unit with responsibility for promoting the
    economy, efficiency, and effectiveness of USAID,
    USADF, and IAF. To carry out this responsibility, OIG
                                                               Islamic Charity Charged with Terrorist
                                                               Financing; Former U.S. Congressional
                                                               Representative Indicted for Money Laundering

                                                               On January 16, 2008, a Kansas City Federal grand jury
    is authorized to conduct and supervise audits and          returned a superseding indictment charging an Islamic
    investigations relating to the programs and operations     relief agency and several of its former officers with eight
    of these establishments. Some of the work that OIG         counts of engaging in prohibited financial transactions
    performs is mandated by law or other authority, while      for the benefit of a U.S. Specially Designated Global
    discretionary work is prioritized, planned and performed   Terrorist. The indictment also charges a former U.S.
    based on USAID, USADF, and IAF challenges and              congressional representative with money laundering,
    program risk levels. The results described below are       conspiracy, and obstruction of justice.
    examples of how OIG helps to position USAID,
                                                               The indictment alleges that the organization engaged
    USADF, and IAF to make decisions and establish
                                                               in transactions for the benefit of global terrorists who
    policies that enhance the economy, effectiveness, and
                                                               have ties to al-Qaeda and the Taliban and conspired
    efficiency of their programs and operations.
                                                               with the former congressional representative to convert
                                                               stolen Federal funds into payment for the congressional
    ACHIEVING PEACE AND SECURITY                               representative’s advocacy on behalf of the charity. The
                                                               indictment also alleges that the former congressional
    COUNTERTERRORISM                                           representative engaged in money laundering and
                                                               obstruction of a Federal investigation in an effort
    FSN Resigns in Lieu of Termination                         to disguise the charity’s misuse of taxpayer money
                                                               provided by the Government for humanitarian purposes.
    OIG received information that a USAID contractor           The indictment records allege that the congressional
    operating in West Bank and Gaza received false or          representative obstructed the due administration
    inaccurate information from a USAID FSN employee           of justice in the grand jury investigation by making
    regarding one of its prospective subcontractors. An        false statements to Federal agents and prosecutors in
    OIG investigation confirmed that the FSN employee          December 2005 and April 2007.
    was responsible for coordinating background checks
    of prospective funding recipients as part of USAID’s       OIG’s Oversight Activities Continue in the
    terrorist vetting program. The FSN then provided           West Bank and Gaza
    that information to prime contractors. In this case,
    on several occasions, the FSN in question cleared the      OIG’s oversight activities in the West Bank and Gaza
    company for USAID-financed work despite multiple           included audits of USAID’s cash transfer program to the
    verbal and written warnings from USAID officials that      Palestinian Authority and continuing audits of USAID’s
    there was derogatory information on the company.           contractors and grantees.

    The subject offered little explanation regarding his       USAID contracted with independent public accounting
    actions and resigned in lieu of termination. Neither       firms to conduct concurrent audits of cash transfers
    USAID nor the prime contractor provided funds to           to the Palestinian Authority, financial audits, and
    the prospective subcontractor as a result of the FSN’s     agreed-upon procedures of contractors, grantees,
    actions.                                                   subcontractors, and subgrantees. These audits help
                                                               ensure the validity of costs claimed and compliance with
                                                               Executive Order 13224 regarding blocking assistance


6   SEMIANNUAL REPORT TO THE CONGRESS
to terrorist organizations. During this period, OIG                              Final action has been taken on all recommendations.
issued seven final reports. The reports identified
questioned costs of approximately $65,000 of the $13                             (Audit Report No. 6-294-08-001-P)
million audited. In addition, the reports identified areas
for improvement in internal controls and instances of                            West Bank and Gaza Did Not Always Follow
noncompliance with agreements.                                                   Laws, Regulations, and USAID Policies in
                                                                                 Providing Assistance, but Has Implemented
OIG oversight activities during this period did not                              Stronger Requirements
identify any instances where terrorist organizations
received USAID funds.                                                            Since 2002, USAID/West Bank and Gaza has provided
                                                                                 5 awards and 34 subawards valued at about $31
USAID/West Bank and Gaza Implemented                                             million to Al-Quds University ($3 million), the Islamic
Executive Order 13224, but Improvements Can                                      University in Gaza ($900,000), and American Near East
Be Made                                                                          Refugee Aid ($27 million). OIG conducted an audit of
                                                                                 USAID/West Bank and Gaza’s assistance to these
Following September 11, 2001, President Bush                                     organizations in response to congressional and
issued Executive Order 13224 – Blocking Property                                 USAID concerns that funds were being provided
and Prohibiting Transactions with Persons Who                                    to organizations that support terrorism. The audit’s
Commit, Threaten to Commit, or Support Terrorism.                                purpose was to determine whether USAID’s mission
Executive Order 13224 identifies certain individuals                             to West Bank and Gaza provided U.S. assistance to
and entities that commit or pose a significant risk                              the universities and to the refugee aid organization in
of committing terrorist acts. USAID/West Bank                                    accordance with applicable Federal laws, Executive
and Gaza implemented Executive Order 13224 on                                    Order 13224, and USAID policies.
terrorist financing through three mechanisms: vetting,
certifications, and clauses.1                                                    OIG determined that USAID/West Bank and Gaza
                                                                                 did not always comply with applicable Federal laws,
OIG conducted an audit to determine whether                                      regulations, or USAID policies when providing
USAID/West Bank and Gaza implemented policies,                                   assistance to Al-Quds University, the Islamic University
procedures, and controls to comply with Executive                                in Gaza, and American Near East Refugee Aid.
Order 13224. OIG found that USAID/West Bank                                      However, 21 of 23 cases of noncompliance that OIG
and Gaza has implemented policies, procedures, and                               identified took place between 2003 and 2005, prior to
controls. However, in 2005 and 2006, USAID/West                                  the implementation of current policies that addressed
Bank and Gaza did not vet 2 of 26 prime awardees                                 these issues. Since that time, USAID has implemented
and subawards in accordance with mission vetting                                 stronger requirements for vetting non-U.S. organizations
procedures. Neither of the non-vetted awards was active                          and individuals, requiring antiterrorism clauses in
at the time of the audit.                                                        USAID awards, and receiving certifications from U.S.
                                                                                 and non-U.S. nongovernmental organizations that they
OIG recommended that USAID/West Bank and Gaza                                    do not support terrorism.
establish procedures to (1) help ensure compliance with
existing policy that all subawardees are vetted, and that                        OIG made recommendations for corrective action
contractors and subcontractors are vetted if they receive                        in a related audit of USAID/West Bank and Gaza’s
contracts or subcontracts over any 12-month period                               implementation of Executive Order 13224 as
that total more than $25,000; and (2) address how each                           discussed above, and final action was taken on all
antiterrorism provision applies to assistance-related                            recommendations.
purchase orders.
                                                                                 (Audit Report No. 6-294-08-002-P)


1. Vetting:	Screening organizations and individuals to ensure they are not affiliated with terrorism.
   Certifications: Requiring organizations to certify, before being awarded a grant or cooperative agreement by USAID, that they do not provide material
   support or resources for terrorism.
   Clauses: Requiring clauses in awards and subawards to (1) remind contractors and recipients that U.S. Executive orders and U.S. law prohibit
   transactions with, and the provision of resources and support to, individuals and organizations associated with terrorism and (2) restrict the naming of
   facilities in honor of individuals who commit, or have committed, acts of terrorism.


                                                                                                      SEMIANNUAL REPORT TO THE CONGRESS                       7
    STABILIZATION OPERATIONS AND                                  contractors through U.S. military databases; establishing
    DEFENSE REFORM                                                procedures to help ensure prompt reporting of potential
                                                                  fraud to OIG; improving the quality of employment
    USAID/Iraq’s Community Stabilization                          generation data reported by the implementing partner;
    Program Could Be Improved                                     and recovering ineligible questioned costs of about
                                                                  $40,000. Other recommendations included improving
    The Community Stabilization Program is a 3-year,              the usefulness and accuracy of local government
    $544 million program intended to complement                   effectiveness surveys; tracking recommendations made
    U.S. military security efforts in Iraq through economic       in external monitoring reports; linking outputs to results;
    and social stabilization activities. These activities are     and consistently following the USAID’s branding policy.
    composed of short- and medium-term public works
    projects that provide employment opportunities for            Final action has been taken on three recommendations,
    those groups in Iraqi society that are most susceptible to    and management decisions have been reached on three
    insurgent appeals.                                            additional recommendations. Management decisions
                                                                  are pending on the remaining eight, including vetting
    OIG conducted an audit to determine whether the               contractors with U.S. military databases and reviewing
    program was achieving intended results involving              other activities for possible cancellation.
    community infrastructure and essential services and to
    examine how USAID/Iraq designed and implemented               (Audit Report No. E-267-08-001-P)
    the program to help ensure that Iraqis continue to
    benefit from its activities after the program ends.           COUNTERNARCOTICS
    OIG was unable to determine whether the program               USAID/Afghanistan’s Agriculture, Rural
    was achieving intended results because short-term             Investment, and Enterprise Strengthening
    employment generated by the program was not fully             Program Achieved Most of Its Planned Results,
    substantiated. Furthermore, OIG found evidence of             but Improvements Could Be Made
    potential fraud in a specific district of Baghdad that
    included the possible diversion of funds to militia           Decades of war and Taliban rule have devastated the
    activities as a result of overpriced trash collection         country’s resources and infrastructure and limited
    contracts, timesheets with irregularities, and possible       access to rural financial services. As a result, many
    “phantom” workers. OIG estimated that the amount              Afghan farmers have become involved in illicit opium
    of this potential fraud could range from $6.7 to $8.4         production.
    million. As a result, USAID canceled activities in
    this district. The audit also found that allegations of       In 2006, USAID/Afghanistan awarded a 3-year,
    potential fraud were not promptly reported to OIG.            $80 million cooperative agreement to implement
                                                                  the Agriculture, Rural Investment, and Enterprise
    Regarding sustainability, USAID/Iraq designed and             Strengthening program. The overall purpose of this
    implemented the program to help ensure that Iraqis            program is to (1) provide expanded access to rural
    continue to benefit from its activities after the program     financial services, primarily in alternative development
    ends. However, there are challenges to sustainability,        regions where farmers grow opium poppy, and (2) create
    such as monitoring issues related to security concerns        a strong private sector foundation for developing a rural
    and the economic effect on laborers transitioning from        finance system that is capable of providing financial
    relatively high-paid positions generated by the program       services on a sustainable basis.
    to lower-paid positions.
                                                                  OIG conducted an audit of USAID/Afghanistan’s
    Major recommendations included immediately                    Agricultural, Rural Investment, and Enterprise
    suspending program projects within the specific               Strengthening Program to determine whether this
    Baghdad district and putting the $8.5 million to better       program was achieving intended results and having an
    use; reviewing projects in other areas for similar evidence   impact. In its first year, the program achieved intended
    of fraud; coordinating with other program participants        results. One microenterprise partner issued $4.9 million
    and exploring the feasibility of vetting potential            in loans that created more than 8,600 jobs, including


8   SEMIANNUAL REPORT TO THE CONGRESS
a number of jobs that moved people out of opium
poppy production. However, OIG determined that
improvements could be made.

For example, OIG’s recommendations included clarifying
to USAID/Afghanistan’s partners that the program is
to be implemented primarily in opium poppy-growing
regions, that they should relate success stories to USAID
that demonstrate opium poppy workers are transferring
into licit livelihoods, and that the performance
monitoring plan should include appropriate performance
indicators and targets and reporting those results in
quarterly reports.

Management decisions have been reached on all six OIG
recommendations, and final action has been taken on                         Photograph of a cobblestone farm-to-market road built under the
                                                                            cash-for-work program.
four.

(Audit Report No. 5-306-08-001-P)                                         increase in opium production resulted from a variety
                                                                          of causes, including increased insurgency, lack of
USAID/Afghanistan’s Alternative Development                               effective eradication policies, and a breakdown in rule
Program–Southern Region Achieved Partial                                  of law. In addition, the responsible contractor started
Results                                                                   the program later than planned. The delay was due to
                                                                          insurgent attacks and a delay in mission approval of the
The production and trafficking of illicit narcotics                       contractor’s work plan.
poses a serious challenge to Afghanistan. To help the
Afghan Government reduce poppy cultivation, the U.S.                      OIG recommended that USAID/Afghanistan develop
Government established a counternarcotics strategy,                       procedures and set requirements to ensure timely review
which includes incentives to stop growing poppy through                   and approval of contractor work plans. A management
alternative development projects, combined with strong                    decision was reached on the recommendation.
Afghan Government disincentives.
                                                                          (Audit Report No. 5-306-08-003-P)
In 2005, USAID/Afghanistan was awarded a 4-year,
$120 million contract to implement the Alternative                        USAID/Peru’s Actions in Response to Prior
Development Program–Southern Region. In 2007,                             Audit Recommendations Were Not Fully
supplemental funding raised the contract ceiling to $166                  Effective
million. The goals of this program are to accelerate
regional economic development and provide new                             Peru is the world’s second largest cultivator of coca,
opportunities for Afghans to seek livelihoods in the licit                and the U.S. Government is taking a three-pronged
economy, and provide an alternative source of income to                   approach in Peru to fight drug production—interdiction,
poor households whose livelihoods depend on the poppy                     eradication, and alternative development. USAID/Peru
economy.                                                                  is leading the alternative development efforts.

OIG found that USAID/Afghanistan’s program achieved                       OIG conducted a followup audit of USAID/Peru’s
some planned results, such as increasing the number                       Alternative Development Program to determine whether
of seasonal and full-time jobs through infrastructure                     actions taken by the mission in response to prior OIG
projects and training farmers in agricultural techniques                  audit recommendations2 were effective.
and product marketing. However, despite the program’s
progress, opium production continued to rise. The


2. Audit of USAID/Peru’s Alternative Development Program, December 13, 2005 (Audit Report No. 1-527-06-001-P).



                                                                                              SEMIANNUAL REPORT TO THE CONGRESS               9
     OIG found that the Alternative Development Program          INVESTING IN PEOPLE
     is meeting performance targets for voluntary eradication
     of coca. OIG also found that USAID/Peru effectively         HEALTH
     addressed 12 of the 16 recommenda-tions included in
     the original audit report. In addition, actions taken to    USAID’s New Partners Initiative Created
     address three other recommendations were partially          Under the President’s Emergency Plan for
     effective regarding developing a strategy for verifying     AIDS Relief Could Be Improved
     that all coca in the participating communities has been
     eradicated, limiting assistance to communities to $2,000    PEPFAR is a 5-year, $15 billion approach to combat
     per hectare of coca eradicated, and enforcing cost-         the global human immunodeficiency virus/acquired
     sharing requirements for communities.                       immune deficiency syndrome (HIV/AIDS) pandemic.
                                                                 To help support PEPFAR, President Bush announced
     In response to a recommendation to transition the cash      the New Partners Initiative. The New Partners Initiative
     payments program to other forms of assistance, the          is directed by the global AIDS coordinator and offers
     mission and its contractor decided to continue the cash     approximately $200 million to new partner organizations
     payments but reduce the amount per family. However,         to provide HIV/AIDS services in 15 of the most
     the audit found evidence that lists of beneficiaries were   affected countries. It was created to build the capacity
     inflated. This could have resulted in as much as $2.9       of organizations at the community level.
     million in ineligible payments to beneficiaries and an
     additional $1.4 million in award fees to the contractor.    OIG conducted an audit of USAID’s New Partners
     Therefore, OIG concluded that the mission’s actions         Initiative to determine whether (1) it had an impact on
     were not effective and also referred the matter to its      USAID missions’ workload and efforts to increase the
     Office of Investigations for further review.                number of new partners to help achieve the President’s
                                                                 PEPFAR prevention and care goals, and (2) USAID’s
     OIG made eight recommendations, including ensuring          partners receiving cooperative agreements under the
     that implementing partners put controls in place over       New Partners Initiative had the capacity to comply with
     cash payments, and making management decisions              certain USAID administrative requirements.
     regarding $2.9 million in program questioned costs
     and $1.4 million in contractor questioned costs. Final      OIG found that the missions reported an increased
     action has been taken on four recommendations, and          workload caused by the New Partnership Initiative.
     management decisions are pending on the remaining           Also, uncertainty about where the future management
     four.                                                       of the program’s partners would reside (at the country
                                                                 level or in Washington) had a negative effect on USAID
     (Audit Report No. 1-527-08-003-P)                           missions’ interactions with their partners. In addition,
                                                                 some of USAID’s partners did not have the capacity to
                                                                 comply with certain USAID administrative requirements.
                                                                 Specifically, OIG identified weaknesses in their ability to
                                                                 comply with financial and program reporting, accounting
                                                                 practices, and work plan requirements.

                                                                 OIG made 10 recommendations, including assessing
                                                                 whether resources in each country are sufficient to
                                                                 support and manage the workload, determining if
                                                                 partners would be managed best by Washington staff or
                                                                 at the country level, correcting deficiencies identified in
                                                                 preaward surveys, and providing guidance for work plan
                                                                 preparation and program reporting.




10   SEMIANNUAL REPORT TO THE CONGRESS
Management decisions have been reached on all               USAID/Angola’s Implementation of the
10 recommendations, and final action has been               President’s Malaria Initiative Is Making
taken on 6.                                                 Progress, but Improvements Can Be Made

(Audit Report No. 9-000-08-002-P)                           In June 2005, President Bush launched the President’s
                                                            Malaria Initiative with a goal of reducing malaria deaths
USAID/Zimbabwe’s Emergency Plan for AIDS                    by 50 percent in 15 target countries in Africa by the
Relief Had an Impact, Even Though It Did Not                end of 2010. The initiative’s goal is to reach 85 percent
Achieve All Planned Results                                 of the most vulnerable people (pregnant women and
                                                            children under age 5) through prevention and treatment
Recognizing the global HIV/AIDS pandemic as one of          activities. USAID leads the President’s Malaria Initiative
the greatest challenges of our time, Congress enacted       with assistance from the U.S. Centers for Disease
legislation to fight HIV/AIDS internationally through       Control and Prevention, host country governments, and
PEPFAR. To further the President’s goals, the U.S.          other donors.
Government provided $20.5 million in fiscal year 2005
to support the fight against HIV/AIDS in Zimbabwe.          Malaria is the principal cause of morbidity and mortality
                                                            in Angola. OIG conducted an audit of USAID/
OIG conducted an audit to determine if                      Angola’s Implementation of the President’s Malaria
USAID/Zimbabwe’s PEPFAR prevention, care, and               Initiative to determine whether selected activities were
treatment activities achieved expected planned results in   achieving results. OIG determined that USAID/Angola
its grants, cooperative agreements, and contracts.          met planned targets for the following activities:
OIG found that although USAID/Zimbabwe did not                  • 	 Indoor spraying of houses with insecticide to
achieve all planned results, those that were achieved had           kill mosquitoes in targeted areas.
an impact. For example, one partner’s goal of providing
150,000 individuals with counseling and testing services        • 	 Procurement and distribution of long-lasting
was exceeded by more than 50,000, and another partner               insecticide-treated bed nets to children under
involved in treatment activities exceeded its target                age 5.
of providing 500 patients with antiretroviral therapy
by providing treatment to more than 600 patients.               • 	 Procurement of insecticide-treated bed nets for
However, OIG identified internal control weaknesses                 sale at a subsidized price.
at both the mission and partner levels related to
                                                            However, OIG found that USAID/Angola’s
performance management and data quality of outputs.
                                                            implementation of the President’s Malaria Initiative
OIG made two recommendations that                           activities could be strengthened. Recommendations
                                                            included finalizing the performance management plan;
USAID/Zimbabwe monitor and assure the quality               performing data quality assessments; documenting site
of data. Final action has been taken on both                visits and validating partners’ data during the site visits;
recommendations.                                            and entering into a formal agreement with the National
                                                            Malaria Control Program for indoor residual spraying
(Audit Report No. 7-613-08-001-P)                           activities.

                                                            OIG made four recommendations to address the above
                                                            issues. Management decisions have been reached on two
                                                            recommendations, a management decision is pending on
                                                            one, and final action has been taken on another.

                                                            (Audit Report No. 4-654-08-001-P)




                                                                             SEMIANNUAL REPORT TO THE CONGRESS             11
     OIG Found No Evidence of Tiahrt Violations                                   This report, titled Audit of USAID’s Effectiveness
     at Selected Missions, but Programs Could Be                                  in Complying with Tiahrt Voluntary Family Planning
     Improved                                                                     Requirements, summarized the results of three OIG
                                                                                  audits conducted at USAID missions in Bolivia, Mali,
     USAID provides support to more than 50 country                               and Ethiopia,3 and fieldwork performed at USAID’s
     programs for family planning throughout the world, and                       headquarters in Washington, DC.
     provides technical assistance and training to missions,
     and performs country program assessments. The Tiahrt                         OIG found no evidence of Tiahrt amendment
     amendment reaffirms and elaborates on standards for                          violations, and concluded that, with some exceptions,
     voluntary family planning service delivery projects. The                     USAID had effectively implemented controls and
     Tiahrt amendment includes the following requirements:                        procedures to help ensure that USAID and its
                                                                                  implementing partners complied with the Tiahrt
          • 	 Service providers and referral agents cannot                        amendment requirements. However, OIG found that
              implement or be subject to quotas relating to                       USAID should strengthen controls and procedures
              numbers of births, family planning acceptors,                       related to: ensuring that regular audits cover whether
              or acceptors of a particular family planning                        or not partners had violated the amendment;
              method.                                                             communicating the amendment’s requirements to family
                                                                                  planning partners; and preparing missions to investigate,
          • 	 Incentives should not be paid to individuals in
                                                                                  remedy, and report potential violations.
              exchange for accepting family planning services
              or to program personnel for achieving targets or                    OIG made six recommendations, including that USAID
              quotas.                                                             request the Office of Management and Budget to
                                                                                  include the Tiahrt amendment requirements in its
          • 	 Rights or benefits cannot be withheld from
                                                                                  Compliance Supplement to assist in testing for Tiahrt
              individuals who decide not to accept family
                                                                                  compliance; amend its regulations requiring Tiahrt
              planning services.
                                                                                  amendment language in family planning contracts to
          • 	 Those who accept family planning services must                      develop consistent, coherent, and current policies; and
              receive information on health benefits and risks                    issue guidance to every USAID mission with a family
              of the family planning method chosen.                               planning program to develop procedures to investigate,
                                                                                  remedy, and report Tiahrt amendment violations.
          • 	 Experimental family planning methods are
              provided only in the context of a scientific study                  Management decisions have been reached on all
              in which participants are advised of potential                      recommendations, and final action has been taken on
              risks and benefits.                                                 five.

     Additionally, no later than 60 days after the USAID                          (Audit Report No. 9-000-08-005-P)
     administrator determines that a violation of the Tiahrt
     requirement has occurred, a report must be submitted
     to Congress describing the violation and the corrective
     actions taken.




     3. Audit of USAID/Bolivia’s Effectiveness in Complying with Tiahrt Requirements, December 26, 2006 (Audit Report No. 1-511-07-004-P); Audit of
        USAID/Mali’s Effectiveness in Complying with Tiahrt Volunteer Family Planning Requirements,August 14, 2007 (Audit Report No. 7-688-07-003-P); and
        Audit of USAID/Ethiopia’s Effectiveness in Complying with the Tiahrt Requirements, June 29, 2007 (Audit Report No. 4-663-07-007-P).



12    SEMIANNUAL REPORT TO THE CONGRESS
   Photographs of two groups that are benefiting from USAID/Nigeria’s microfinance program. Credit officers meet with the groups weekly to
   collect the loan payments and mandatory savings deposits. Both groups indicated that the loans enhanced the ability to grow their businesses.




ECONOMIC GROWTH AND                                                           exceeding the targets for 9 of 11 indicators, and meeting
PROSPERITY                                                                    the targets for the remaining 2 indicators. For example,
                                                                              more than 13,000 loans were disbursed to microfinance
ECONOMIC OPPORTUNITY                                                          institutions, exceeding the target of 9,000. However, the
                                                                              mission did not ensure that eligibility conditions were
USAID/Nigeria’s Microfinance Activities Could                                 met before agreements were signed with microfinance
Be Improved                                                                   institutions, according to USAID guidance. Also,
                                                                              USAID/Nigeria did not verify the microfinance data for
Over the past three decades, support for microfinance                         fiscal year 2006 activities included in its annual report to
development has been an important feature of U.S.                             USAID/Washington, and underreported the value of its
foreign assistance. USAID has advanced its vision                             loans by $13.2 million.
of strengthening economic opportunities for poorer
households to enable families to build assets; cope with                      OIG made three recommendations: developing
the risks and vulnerability that accompany poverty; plan                      procedures and guidance to ensure compliance with
for better futures for their children; and contribute to key                  USAID eligibility requirements, correcting the erroneous
sectors of local, national, and regional economies.                           data, and expanding its local guidance for reporting data
                                                                              to USAID/Washington.
OIG conducted an audit to determine whether
USAID/Nigeria had implemented its microfinance                                Management decisions have been reached on all
activities efficiently and achieved planned results.                          recommendations, and final action has been taken on
                                                                              one.
OIG found that the mission complied with the
requirements regarding efficiency and cost-effectiveness                      (Audit Report No. 7-620-08-002-P)
in the Microenterprise Results and Accountability
Act of 2004. OIG also found that USAID/Nigeria’s
microfinance activities achieved planned results by




                                                                                                   SEMIANNUAL REPORT TO THE CONGRESS               13
       Photograph of a proprietor, in front of his greenhouse, who received    Photograph of bottles of olive oil being prepared for export by a
       a microloan under the Small Business Credit and Assistance Project.     business that was receiving technical assistance under the Enterprise
                                                                               Development and Export Market Services Project.



     PRIVATE SECTOR COMPETITIVENESS                                           However, OIG identified activities that did not make
                                                                              satisfactory progress. Specifically, the project was not
     USAID/Albania’s Economic Restructuring and                               meeting its planned targets relating to the volume of
     Agriculture Development Program Is Achieving                             loans resulting from USAID-sponsored loan guarantees
     Results, but It Can Be Improved                                          being issued to micro, small, and medium-sized
                                                                              enterprises. OIG determined that the level of actual
     USAID/Albania’s Economic Restructuring and                               activity was satisfactory, but that the projected targets
     Agriculture Development Program seeks to support                         were set higher than industry standards.
     economic growth and poverty reduction in Albania
     by promoting private enterprise development through                      OIG recommended that USAID/Albania develop
     training, technical assistance, and increased access to                  revised targets that are consistent with industry
     financial capital. As of September 2007, the program                     standards. Final action has been taken on this
     consisted of seven projects with a total funding level of                recommendation.
     approximately $33 million.
                                                                              (Audit Report Number 8-182-08-001-P)
     OIG conducted an audit to determine whether the
     program achieved its planned results. OIG determined
     that the program achieved most of its expected results
     for the activities tested. The program was achieving its
     overall objectives and benefiting a number of businesses,
     resulting in improved quality control and marketing,
     greater availability of economic information, better
     access to financial capital for startup and expansion, and
     increased domestic and regional sales.




14   SEMIANNUAL REPORT TO THE CONGRESS
     Strategic Goal 2:
     Protect U.S. foreign assistance programs and operations from fraud, waste, and
     abuse



A        nother of OIG’s responsibilities under
         the Inspector General Act of 1978, as
         amended, is to prevent and detect fraud
and abuse in USAID, USADF, and IAF programs
and operations. Through the conduct of audits and
                                                             OIG made three recommendations, and management
                                                             decisions have been reached on all recommendations.

                                                             (Audit Report No. 0-000-08-001-C)

investigations, as well as training and outreach, OIG        OIG Identified $29 Million in Questioned Costs
identifies and addresses any vulnerabilities and integrity
concerns that place USAID, USADF, and IAF programs           OIG oversees audit work conducted by Federal and
at risk. The following examples demonstrate how OIG          non-Federal auditors and transmits Defense Contract
reduces U.S. foreign assistance programs’ exposure to        Audit Agency reports conducted for OIG to USAID
fraud, waste, and abuse.                                     management for appropriate action. In addition,
                                                             OIG performs oversight of non-Federal auditors who
                                                             perform audits of U.S.-based nonprofit and foreign
STRENGTHENING MANAGEMENT                                     organizations that receive USAID funds, and conducts
CAPABILITIES                                                 quality control reviews to determine if the audits comply
                                                             with U.S. Government requirements. During this period,
PLANNING AND ACCOUNTABILITY                                  OIG reviewed 165 audit reports that identified about
                                                             $29 million in questioned costs, covering about $1.7
OIG Issued an Unqualified Opinion on USAID’s                 billion audited. OIG also issued seven quality control
Financial Statements; However, Improvements                  review reports.
Are Needed
                                                             Investigation Leads to Over $1 Million Bill for
OIG issued an unqualified opinion on USAID’s fiscal          Collection from USAID Contractor
years 2007 and 2006 financial statements and reported
five significant deficiencies in internal controls.          USAID issued a $1,046,253 bill for collection to a
                                                             U.S.-based contractor for failing to obtain a USAID
Significant deficiencies were reported in the following      contracting officer’s approval prior to the long-term
areas: controls over interagency reporting, accounting       leasing of non-U.S.-made vehicles, as the USAID
for loans receivable, reporting on foreign currency          contract had required. OIG’s investigation uncovered
transactions, reconciliation of intragovernmental            that the contractor entered into the leases on a
transactions, and reconciliation of fund balance with the    noncompetitive, exclusive basis without the requisite
U.S. Treasury.                                               source origin waiver.
OIG recommended that USAID (1) develop agreements
with other Federal Government agencies to help ensure        Investigation Leads to Arrest of Relief Official
that budgetary and proprietary information reported
                                                             On December 14, 2007, a U.S. magistrate judge signed
by the recipient agencies are compatible, (2) annually
                                                             a criminal complaint and issued an arrest warrant for
update and validate its transaction codes to help ensure
                                                             the former financial director of a USAID-funded
that information provided by its loan services provider
                                                             nonprofit foundation that supports, trains, and
is accurately reported, and (3) implement controls
to prevent the authorizing of loan write-offs before         houses South American citizens displaced by violence.
appropriations are transferred to USAID by the Office        OIG special agents made the arrest for the violation
of Management and Budget.                                    of 18 U.S.C. § 666 (theft of U.S. program funds).




                                                                            SEMIANNUAL REPORT TO THE CONGRESS            15
     According to the criminal complaint, the former official    OIG Conducts Financial Management Training
     embezzled more than $214,800 and used the funds
     to purchase, among other things, a condominium and          USAID’s contracts and grants define the types of costs 

     furniture for personal use. The embezzlement scheme         that can be charged in support of various programs. To

     went undetected because the financial director falsified    increase awareness and compliance with cost principles, 

     information within the company’s financial statements.      OIG conducts financial management training for 

                                                                 overseas USAID staff, contractors, grantees, and others. 

     Investigation Leads to Arrest                               The training provides a general overview of both U.S.

                                                                 Government cost principles and audit requirements. 

     OIG initiated an investigation after it was reported that   It also provides examples of concepts such as 

     a USAID/Iraq Office of Foreign Disaster Assistance          reasonableness of costs and allowable and unallowable 

     grantee awarded several competitively bid tent              costs.

     procurement contracts to a single company.
                                                                 During this period, OIG provided financial management 

     A review of the bid documents revealed that the same        training in 6 countries to about 400 individuals.

     three Iraqi vendors submitted bids for all six contracts.
     All of the bids appeared to be identical--submitted in      OIG Conducts Fraud Awareness Training
     the same format and verbatim language--and included
     notably similar drawings of tents. The six contracts in     As part of its proactive strategy, the OIG conducts
     question totaled $753,000.                                  fraud awareness training for USAID employees,
                                                                 contractors, grantees and others. The purpose of this
     An OIG investigator in Iraq, working closely with the       training is to alert personnel to fraudulent schemes and
     Iraqi Economic Crimes Division (ECD), provided a fact       practices so that they can prevent or reduce fraud in
     statement on the procurement fraud scheme. An Iraqi         USAID programs and operations. In addition, the OIG
     judge then issued an arrest warrant through the Central     promotes its hotline and advises attendees of methods
     Criminal Court of Iraq for an individual involved in the    and procedures to report potential fraud, waste, or abuse.
     scheme. OIG continues to work with investigators of
     the ECD to bring the case to prosecution.                   The following table is a summary of fraud awareness
                                                                 training provided during this reporting period.
     Additionally, OIG has three outstanding arrest warrants
     issued by Iraqi judges in three separate fraud cases in
     which they are working jointly with the ECD.

     Foreign Service National Terminated for Cause
     in Kabul

     An FSN was terminated as a result of an OIG
     investigation. The former project management specialist
     facilitated the employment of dozens of friends, family
     members, and third-party contacts within the USAID
     mission. Candidates aided by the project manager
     were told to lie on their employment applications. The
     FSN also offered to furnish several of the applicants
     with the interview questions should they be selected
     for an interview. In addition, the FSN provided other
     candidates’ applications to friends for use as templates
     and offered to help potential grant applicants with their
     proposals. One of the friends assisted by the FSN had
     already won a USAID procurement contract.




16    SEMIANNUAL REPORT TO THE CONGRESS
                FRAUD AWARENESS BRIEFINGS CONDUCTED WORLDWIDE

                              AS OF MARCH 31, 2008


  Month               Location             Sessions          Attendees              Professional Affiliation
   OCT         Baghdad, Iraq                    1               20           USAID Personnel
               Washington, DC                   1               11           USAID Personnel
               Cairo, Egypt                     1               12           USAID Personnel

   NOV         Baghdad, Iraq                    1               6            U.S. Army Infantry Officers
               Washington, DC                   1               17           USAID Personnel
               San Salvador, El Salvador        1               30           Inter-American Foundation

    DEC        Bamako, Mali                     1               37           USAID Personnel
               Cairo, Egypt                     1               23           USAID Personnel
    JAN        Baghdad, Iraq                    1               29           USAID Personnel
               Baghdad, Iraq                    1               21           USAID Iraq Provincial Reconstruction Team
               Washington, DC                   1               31           USAID Personnel
               San Salvador, El Salvador        1               229          NGO Personnel

    FEB        Washington, DC                   1               29           USAID Personnel
               Washington, DC                   1               18           USAID Personnel
               Lusaka, Zambia                   2               140          USAID Personnel
   MAR         Washington, DC                   5               79           USAID Personnel

                       TOTAL                   21               732



SECURITY                                                        met. OIG assessed USAID’s progress on selected
                                                                HSPD-12 requirements and milestones due in calendar
USAID Did Not Fully Implement Homeland                          years 2007 and 2008.
Security Presidential Directive 12
                                                                OIG found that USAID did not fully comply with
On August 27, 2004, the President signed Homeland               personal identity verification requirements, did not meet
Security Presidential Directive 12 (HSPD-12), which             the target date to issue new Federal identity credentials
required the development and implementation of a                to current employees and contractors in 2007, and will
mandatory Governmentwide standard for secure and                not meet the 2008 target date. OIG recommended that
reliable forms of identification for Federal employees          USAID develop and document an implementation plan
and contractors to access federally controlled facilities       for personal identity verification and submit the plan to
and information systems. In August 2005, the Office of          the Office of Management and Budget.
Management and Budget issued memorandum M-05-24,
Implementation of Homeland Security Presidential Directive      A management decision has been reached on this
(HSPD) 12—Policy for a Common Identification Standard           recommendation.
for Federal Employees and Contractors, to executive branch      (Audit Report No. A-000-08-004-P)
agencies, with instructions and timeframes to implement
selected HSPD-12 requirements.

OIG conducted an audit of USAID’s Implementation
of Selected Homeland Security Presidential Directive
12 Requirements for Personal Identity Verification
of Federal Employees and Contractors to determine
whether selected HSPD-12 requirements were being


                                                                                SEMIANNUAL REPORT TO THE CONGRESS           17
     Strategic Goal 3:
     Continually improve OIG functions and operations




I    nternal OIG readiness is essential in order to realize
     effective results in terms of OIG’s commitment
     to strengthen the efficiency, economy, and
effectiveness of USAID, USADF, and IAF’s programs
and operations and to protect them from fraud, waste,
                                                              In compromise, the manufacturer has also agreed to
                                                              cooperate in the Government’s ongoing investigation
                                                              of other parties that manufacture or distribute “Red
                                                              Thread” products.

and abuse. It requires constant attention to and              OIG Position Sensitivity and Risk Review
improvement of OIG’s infrastructure to provide an
organizational foundation that reduces risk to OIG staff      During this reporting period, OIG completed an internal
security, systems, and, ultimately, effectiveness. Critical   review of position sensitivity and public trust risk level
management systems include those related to staff             requirements for all U.S. direct hire positions. The
and organizational competency and performance and             objectives of the review were to (a) ensure compliance
information management.                                       with Executive Order 12968, which requires that the
                                                              number of employees eligible for access to classified
                                                              information shall be kept to the minimum required
EMPLOYEE SAFETY AND SECURITY                                  for the conduct of agency functions; and (b) ensure
                                                              compliance with 5 CFR 731, which requires all
U.S. Government Contractor Pays $15 Million                   competitive service positions to be designated at a risk
Settlement to the U.S. Government for Sale of                 level consistent with its potential for adverse impact to
Defective Bulletproof Vests                                   the integrity and efficiency of Government service.

On October 29, 2007, a U.S. Government contractor             The review resulted in the identification of specific key
agreed to pay a $15 million settlement to the United          positions requiring high-level security clearances and a
States for its role in the manufacture and sale of            significant reduction in the level of security clearance
defective Zylon bulletproof vests and body armor to           requirements for OIG positions overall. On April 1,
Federal, State, local and tribal law enforcement agencies.    2008, the Inspector General formally approved OIG
USAID OIG was the recipient of defective body armor           position sensitivity and public trust level designations
and is a part of the multiagency taskforce investigating      and action is being taken accordingly. Though the
the matter.                                                   primary benefit of this review is the reduced risk of
                                                              security infractions associated with a highly cleared
The manufacturer purchased and used defective,                workforce, personnel security cost reductions and more
subgrade ballistic fabric for the construction of             timely staff recruitment and placement are expected.
bulletproof vests. From 1996 to 2005, it wove “Red
Thread” Zylon fabric into body armor and vests,
although the fabric degrades faster when exposed to
heat, light, and humidity. The United States asserts
that the company either knew of or recklessly failed to
determine the defective nature of the “Red Thread”
Zylon. The manufacturer disputes these claims, but
entered into settlement to mitigate litigation expenses,
delays, and inconveniences.




                                                                              SEMIANNUAL REPORT TO THE CONGRESS            19
     EFFICIENCY THROUGH AUTOMATION
     Two recent significant automation efforts undertaken to
     make the audit and investigative processes more efficient
     are described below.

     Audit Information Management System
     (AIMS)

     USAID/OIG has initiated its new Audit Information
     Management System (AIMS) to track OIG’s audit
     recommendations and USAID’s management decisions.
     OIG’s in-house information technology experts and
     audit subject matter experts designed and developed
     the system to create statutorily required reports for
     Congress. The new system will improve efficiencies by
     allowing domestic and overseas users the benefit of real-
     time information and search capacity. It will also allow
     for the future possible integration of both audit and
     investigative databases. When fully operational, AIMS
     will include all audit report findings, recommendations,
     and management decisions, along with associated cost
     information.

     Criminal Law Enforcement Records System
     (CLERS)

     On March 1, 2008, OIG launched its paperless,
     computerized Criminal Law Enforcement Records
     System (CLERS), a Web-based case file management
     system used to store and process all case-related
     information and statistics in connection with OIG
     investigations. When fully operational, investigators
     will be afforded access to case data generated prior to
     the implementation of CLERS that may be relevant to
     ongoing investigations.




20   SEMIANNUAL REPORT TO THE CONGRESS
               A
               P
               P
  REPORTING    E
REQUIREMENTS   N
               D
               I
               C
               E
               S

                   21
                        USAID FINANCIAL AUDIT REPORTS ISSUED

                          October 1, 2007 through March 31, 2008

                                                                                                    Amount of
             Report       Date of                                                                    Findings        Type of
             Number       Report                            Report Title                             ($000s)         Findings
                                            --PROGRAMS AND OPERATIONS-­
       0-000-08-001-C     11/14/07   Audit of USAID’s Financial Statements for Fiscal Years 2007
                                     and 2006

                                         --FOREIGN-BASED ORGANIZATIONS-­
       1-504-08-001-D     10/04/07   Close-Out Audit of the Fund Accountability Statement of
                                     Maurice Solomon And Company Under Contract No. 504­
                                     C-00-05-00105-00 for the period from May 9, 2005 to April
                                     30, 2007
       1-511-08-001-R     10/05/07   Independent Auditor’s Report for the Year Ended December
                                     31, 2002;Vice Ministry of Alternative Development Executing
                                     Entity: Neighbour Roads Unit - Yungas Grant Agreement for
                                     the Strategic Objective of Alternative Development USAID
                                     No. 511-0643
       1-526-08-002-R     10/05/07   Audit of Program No. 526-A-00-00-00125-00, Managed by
                                     the Fundacion Para el Desarrollo Sustentable del Chaco for
                                     the Year Ended December 31, 2006
       1-527-08-003-R     10/11/07   Audit on the Fund Accountability Statement Consolidated of
                                     Cooperative Agreement No. 527-G-00-99-00321-00 Houses
                                     for Homeless Children and Adolescents, for the Period
                                     October 1, 2005 to September 30, 2006 and Cooperative
                                     Agreement No. 527-A-00-06-00017-00 Sustainable
                                     Development Without Coca in Peruvians Coca Growers
                                     Valleys, for the Year Ended December 31, 2006
       1-511-08-004-R     10/11/07   Independent Auditor’s Report for the Period From January
                                     1 to December 31, 2006; Research, Studies and Services
                                     Center Cooperative Agreements USAID No. 511-A-00-98­
                                     00158-00 and USAID No. 511-A-00-04-00298-00
       1-527-08-005-R     10/11/07   Financial Audit of USAID Grant Agreement No. 527-0391;
                                     Confronting the Threats of Emergent and Re-Emergent
                                     Diseases; “Project VIGIA,” Period 2006
       1-511-08-006-R     10/12/07   Independent Auditor’s Report for the Year Ended December          509              QC
                                     31, 2003;Vice Ministry of Alternative Development, Executing
                                     Entity, Neighbor Roads Unit - Chapare; Grant Agreement
                                     for the Strategic Objective of Alternative Development No.
                                     511-0643
       1-511-08-007-R     10/12/07   Independent Auditor’s Report for the Year Ended December          15               QC
                                     31, 2004; Regional Alternative Development Program
                                     - Chapare, USAID Grant Agreement Number 511-0643
       1-511-08-008-R     10/12/07   Independent Auditor’s Report for the Year Ended December
                                     31, 2002;Vice Ministry of Alternative Development Executing
                                     Entity: Neighbour Roads Unit - Chapare Grant Agreement
                                     for Strategic Objective of Alternative Development USAID
                                     No. 511-0643




                                                                                                         BU--Better Use of Funds
                                                                                                         QC--Questioned Costs
                                                                                                         UN--Unsupported Costs
                                                                                                         Note: UN is part of QC


Appendix A                                                                            SEMIANNUAL REPORT TO THE CONGRESS            23
                                                                                                            Amount of
           Report               Date of                                                                      Findings   Type of
           Number               Report                             Report Title                              ($000s)    Findings
        1-527-08-009-R          10/15/07   Financial Audit of the Projects Financed by the United
                                           States Agency for International Development (USAID)
                                           Administered by the PRISMA Benevolent Association and
                                           the PRISMA Benevolent Association Institutional Financial
                                           Statements, for the Period Between January 1 and December
                                           31, 2006
        1-511-08-010-R          10/15/07   Independent Auditor’s Report for the Year Ended December
                                           31, 2003;Vice Ministry of Alternative Development, Executing
                                           Entity, Neighbor Roads Unit - Yungas; Grant Agreement for
                                           the Strategic Objective of Alternative Development No.
                                           511-0643
        1-511-08-011-R          10/16/07   Independent Auditor’s Report for the Year Ended December            669        QC
                                           31, 2004; Neighbor Roads Unit - Chapare; Grant Agreement
                                           for the Strategic Objective of Alternative Development
                                           USAID No. 511-0643
        1-527-08-012-R          10/16/07   Financial Audit of USAID Grant Agreement No. 527-0375;
                                           Project “Coverage With Quality,” Period 2006
        1-527-08-013-R          10/18/07   Financial Audit of USAID Grant Agreement No. 527-0407;
                                           Strengthened Environmental Management Project; Managed
                                           by Consejo Nacional del Ambiente, for the Period January
                                           - December 2006
        1-521-08-014-R          10/25/07   Audit of the Fund Accountability Statement of the
                                           USAID Resources Managed by Fondation Haitienne de L’
                                           Enseignement Prive Under Cooperative Agreement No.
                                           521-A-00-99-00070-00 For the Period of August 1, 2005 to
                                           July 31, 2006; Financial Statements of the Institution for the
                                           Year Ended July 31, 2006
        1-526-08-015-R          10/25/07   Audit of Programs No. 526-A-00-01-00074-00, Civil Society
                                           and No. 526-A-00-01-00100-00, Health Decentralization
                                           and Community Participation Managed by the Fundacion
                                           Comunitaria Centro de Informacion y Recursos Para El
                                           Desarrollo for the Year Ended December 31, 2006
        1-526-08-016-R          10/29/07   Audit of Program No. 526-A-00-02-00073-00 Managed by                49         QC
                                           Instituto de Estudios Comparados en Ciencias Penales y
                                           Sociales for the Year Ended December 31, 2006
        1-520-08-017-R          10/29/07   Report of the Independent Auditors,Audit of the USAID
                                           Cooperative Agreement No. 520-A-00-05-00084-00
                                           “Sustainability Program,” Asociacion Pro-Bienestar de la
                                           Familia de Guatemala, January 1,Through December 31, 2006
        1-520-08-018-R          10/29/07   Close-out Audit of the PL-480 Title II Commodities Program,
                                           Agreement No. FP-A-00-03-00015-00,Asociacion SHARE
                                           Guatemala, for the Ten Months Ended on October 31, 2006
        1-527-08-019-R          10/29/07   Financial Audit of USAID Strategic Objective Grant                  12         QC
                                           Agreement No. 527-0412,“Improve Health for High Risk                12         UN
                                           Population Project,” Managed by the Ministry of Health
                                           through the Programa de Administracion de Acuerdos de
                                           Gestion and by the Office of General Administration for the
                                           Period January 1, 2005 - December 31, 2006




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



24   SEMIANNUAL REPORT TO THE CONGRESS                                                                                       Appendix A
                                                                                                    Amount of
             Report     Date of                                                                      Findings           Type of
             Number     Report                            Report Title                               ($000s)            Findings
       1-511-08-020-R   11/01/07   Asociacion de Proteccion a la Salud Santa Cruz - Bolivia,           335                 QC
                                   Social Marketing - Cooperation Agreement No. 511­                    86                 UN
                                   A-00-02-00295-00 and Partners for the Development
                                   - Cooperation Agreement No. 511-A-00-02-00261-00;
                                   Independent Audit Report for the Exercise Between January
                                   1 and December 31, 2006
       1-522-08-021-R   11/07/07   Audit of the USAID Resources for the Program to                     271                 QC
                                   Strengthening of Democratic Processes in Honduras;                  260                 UN
                                   Cooperative Agreement No. 522-A-00-06-00302-00
                                   Administered by the Federacion de Organizaciones Para el
                                   Desarrollo de Honduras From October 1, 2005 Through
                                   September 30, 2006
       1-526-08-022-R   11/15/07   Audit of the Grant Agreement No. 526-A-00-04-00027-00                5                  QC
                                   Program Good Governance and Anti-Corruption, Managed
                                   by Alter Vida Association, for the Year Ended December 31,
                                   2006
       1-511-08-023-R   11/26/07   Financial Audit of USAID Cooperative Agreement No.                  459                 QC
                                   511-A-00-98-00156-00,“Integral Health Primary Care
                                   Program - Agreement Extension No. 511-0568-A-00-5028­
                                   00: Reproductive Health Program - Rural Component
                                   (Close-out Audit) and USAID Cooperation Agreement No.
                                   511-A-00-05-00113-00: Communitarian Health Project,”
                                   Managed by the Integral Health Coordination Program, for
                                   the Year Ended on December 31, 2006
       1-519-08-024-R   11/15/07   Financial Audit of the Strengthening Health and Basic
                                   Education, USAID Cooperation Agreement No. 519-A-00­
                                   06-00033-00, Managed by Fundacion Empresarial Para el
                                   Desarrollo Educativo for the Period From January 20 to
                                   December 31, 2006
       1-523-08-025-R   12/03/07   Report on the Fund Accountability Statement in Accordance
                                   With the Agreement Made Between the Mexican Nature
                                   Conservation Fund and the United States Agency for
                                   International Development for the National Enabling
                                   Environment for Mexico Program for the Period January 1,
                                   2006 to February 28, 2007
       1-520-08-026-R   12/03/07   Financial Audit of the “Quality Assurance and Small Business
                                   Development” Program, USAID Cooperative Agreement
                                   No. 520-A-00-06-00105-00, Managed by Fundacion Apoyo
                                   a la Generacion de Ingresos Locales for the Period From
                                   Beginning of Operations (June 21, 2006) to December 31,
                                   2006
       1-517-08-027-R   12/21/07   Financial Audit of the Consolidation and Expansion of
                                   Opportunities for Citizen Participation and Political Culture,
                                   USAID Grant Agreement No. 517-A-00-03-00105-00,
                                   Managed by Participacion Ciudadana for the Period
                                   September 1, 2004 to August 31, 2005
       1-511-08-028-R   01/15/08   Centro de Promocion de Tecnologias Sostenibles, Grant                2                  QC
                                   Agreement USAID No. 511-A-00-02-00282-00, Independent                2                  UN
                                   Auditor’s Report, for the Year Ended December 31, 2006




                                                                                                            BU--Better Use of Funds
                                                                                                            QC--Questioned Costs
                                                                                                            UN--Unsupported Costs
                                                                                                            Note: UN is part of QC


Appendix A                                                                           SEMIANNUAL REPORT TO THE CONGRESS                25
                                                                                                            Amount of
           Report               Date of                                                                      Findings   Type of
           Number               Report                            Report Title                               ($000s)    Findings
        1-522-08-029-R          01/15/08   Closeout Audit of the Project “Support and Strengthening
                                           of the Small and Medium Handcrafts Producers,” USAID/
                                           Honduras Cooperative Agreement No. 522-A-00-04-00464­
                                           00, Managed by Fundacion AMBOS for the Period October 1,
                                           2004 to February 28, 2007
        1-522-08-030-R          01/16/08   Closeout Audit of USAID Resources Managed by Instituto
                                           Nacional de Estadistica Under Grant Agreement No. 522­
                                           0433, Project for the Performance of the Demographic and
                                           Health Poll, for the Period August 10, 2005 to September 30,
                                           2007
        1-517-08-031-R          01/16/08   Financial Audit of the Consolidation and Expansion of
                                           Opportunities for Citizen Participation and Political Culture,
                                           Project No. 517-A-00-03-00105-00, and Permanent Program
                                           of Formation of Young People Leaders of the Political Parties
                                           of the Dominican Republic, Project No. 517-A-00-05-00111­
                                           00, Managed by Participation Ciudadana, for the Period
                                           September 1, 2005 to August 31, 2006
        1-527-08-032-R          01/23/08   Fund Accountability Statement of the Cooperative                     6         QC
                                           Agreement No. EDG-A-00-02-00036-00,“Centro Andino                    6         UN
                                           de Excelencia Para la Capacitacion de Maestros” (“Andean
                                           Center of Excellence for Teacher Training”) Financed
                                           Through USAID, Managed by Universidad Peruana Cayetano
                                           Heredia for the Period October 1, 2005 to September 30,
                                           2006
        1-522-08-033-R          01/22/08   Financial Statements Audit of the “Expanding Access to
                                           Family Planning for Marginalized Rural Populations” Program,
                                           USAID Cooperative Agreement No. 522-G-00-06-00-304-00,
                                           Managed by Asociacion Hondurena de Planificacion de
                                           Familia, for the Period From January 1 to December 31, 2006
        1-521-08-034-R          01/23/08   Audit of the Fund Accountability Statement of USAID
                                           Resources Under Cooperative Agreement No. 521-A-00-04­
                                           00040-00, Managed by the Child Health Institute, EMMUS-IV
                                           Project, for the Period From January 1, 2006 to May 31, 2007
        1-538-08-035-R          01/28/08   Fund Accountability Statement Audit of USAID Resources,
                                           Managed by the Caribbean Community Secretariat Under
                                           Regional Strategic Objectives Grant Agreement Nos. 538­
                                           009-01 and 538-010-01, for the Period October 1, 2005 to
                                           December 31, 2006
        1-527-08-036-R          01/30/08   Audit of the Fund Accountability Statement of the Sub
                                           Agreement Frame “Reinforcement of PDA” Program,
                                           Managed by Proyecto Especial de Control y Reduccion de
                                           los Cultivos de Coca en el Alto Huallaga, USAID Grant
                                           Agreement DCOE 527-0404, for the Year Ended December
                                           31, 2006
        1-532-08-037-R          02/05/08   Closeout Audit of USAID Resources Managed by People’s               908        QC
                                           Action for Community Transformation Under the Uplifting             902        UN
                                           Adolescents Project II, Cooperative Agreement No. 532-A­
                                           00-01-00002-00, for the Period July 1, 2004 to July 31, 2005




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



26   SEMIANNUAL REPORT TO THE CONGRESS                                                                                       Appendix A
                                                                                                   Amount of
             Report     Date of                                                                     Findings        Type of
             Number     Report                            Report Title                              ($000s)         Findings
       1-517-08-038-R   02/05/08   Audit of the Fund Accountability Statement for Two Projects,
                                   Cooperative Agreement No. 517-A-00-05-00108-00 and
                                   Grant Agreement No. 517-G-00-04-00119-00, Managed by
                                   the Human Trafficking Fundacion Institucionalidad y Justicia,
                                   Inc., for the Year Ended December 31, 2006
       1-517-08-039-R   02/06/08   Financial Audit of the Activities to Improve Teacher
                                   Effectiveness, Cooperative Agreement No. 517-A-00-06­
                                   00102-00,Administered by Pontificia Universidad Catolica
                                   Madre y Maestra, for the Period From January 18, 2006 to
                                   June 30, 2007
       1-524-08-040-R   02/13/08   Closeout Audit of the Project “Nicaraguan Handicraft for
                                   Export Alliance,” Cooperative Agreement No. 524-A-00-07­
                                   00005-00, Managed by Fundacion AMBOS, for the Period
                                   February 23 to November 30, 2007
       4-623-08-001-N   11/21/07   Agency Contracted Audit of USAID Resources Managed                 461              QC
                                   by The Common Market for Eastern and Southern Africa               434              UN
                                   (COMESA) Under Limited Scope Grant Agreement (LSGAs)
                                   Numbers 6231001-80001 and 6231001-80002 (close-out
                                   audits) and Strategic Objective Grant Agreements (SOAGs)
                                   Numbers 6231005.01-3-30001 and 6231005.01-3-30002 for
                                   the period January 1, 2003 to December 31, 2005
       4-623-08-001-R   10/05/07   Audit of USAID Resources Managed by Regional Centre for            154              QC
                                   Quality of Health Care (RCQHC), under the Limited Scope            113              UN
                                   Grant Agreement Number 6230010.40-00002 for the period
                                   July 1, 2005 to June 30, 2006
       4-612-08-002-N   01/25/08   Agency Contracted Audit of USAID Resources Managed By              296              QC
                                   The National Smallholder Farmers Association of Malawi             224              UN
                                   (NASFAM) Under Cooperative Agreement Number
                                   690-A-00-04-00087-00 for the Period October 1, 2003 to
                                   September 30, 2005
       4-656-08-002-R   10/05/07   Audit of The Foundation for Community Development                  195              QC
                                   (FDC) for the USAID Cooperative Agreement Number
                                   656-A-00-04-00041-00 for the Period September 21, 2004
                                   to September 30, 2005
       4-663-08-003-N   01/31/08   Agency Contracted Audit of USAID Resources Managed by              155              QC
                                   Tigray Development Association (TDA) Under Cooperative             155              UN
                                   Agreement No. 663-A-00-02-00321-00 Basic Education
                                   Strategic Objective (BESO-II) for the year ended June 30,
                                   2005
       4-696-08-004-N   02/04/08   Agency Contracted Close-out Audit of USAID Resources               33               QC
                                   Managed by the Forum for African Women Educationalists             19               UN
                                   (FAWE) Under Grant Agreement No. 623-G-00-04-00059-­
                                   00 for the period August 1, 2003 to January 31, 2005
       4-674-08-004-R   12/20/07   Recipient Contracted Audit of USAID Resources Managed             1,187             QC
                                   by University of Botswana - The Botswana Education,               1,038             UN
                                   Democracy and Development Initiatives (EDDI) Project
                                   Under the Limited Scope Grant Agreement No. 690-G-0302­
                                   01-00 for the Period December 1, 2000 to March 31, 2003




                                                                                                        BU--Better Use of Funds
                                                                                                        QC--Questioned Costs
                                                                                                        UN--Unsupported Costs
                                                                                                        Note: UN is part of QC


Appendix A                                                                          SEMIANNUAL REPORT TO THE CONGRESS             27
                                                                                                         Amount of
           Report               Date of                                                                   Findings   Type of
           Number               Report                           Report Title                             ($000s)    Findings
       4-617-08-005-N           03/25/08   Agency Contracted Audit of USAID Resources Managed              4,740       QC
                                           by the AIDS Information Centre (AIC) Under the Uphold           4,475       UN
                                           Sub-Grant Number 35986-0549-2011 for the Period January
                                           1, 2003 to June 30, 2005
        4-621-08-005-R          01/10/08   Audit of USAID Resources Managed by the Government
                                           of the United Republic of Tanzania’s Primary Health Care
                                           Institute (PHCI) Iringa Project under Strategic Objective
                                           Grant Agreement No. 621-0001-01, Implementation Letter
                                           No. 75 for the Period July 1, 2005 to June 30, 2006
        4-615-08-006-R          01/16/08   Recipient Contracted Audit of USAID Resources Managed            324        QC
                                           by Export Promotion Council (EPC) under the Limited
                                           Scope Grant Agreement No. 615-007-LSGA-003 for the
                                           Period May 23, 2005 to June 30, 2006
        4-623-08-007-R          01/23/08   Recipient Contracted Audit of USAID Resources Managed
                                           by Commonwealth Regional Health Community for East,
                                           Central and Southern Africa (CRHC-ECSA) under the
                                           Limited Scope Grant Agreement No. 6980483.23-80003 for
                                           the year ended June 30, 2006
        4-621-08-008-R          01/25/08   Audit of USAID Resources Managed by the Ministry
                                           of Health and Social Welfare-Centre for Educational
                                           Development in Health Arusha (CEDHA) under the
                                           Strategic Objectives Grant Agreement No. 621-000-01,
                                           Implementation Letters No. 63/66 and 68 for the Period
                                           August 1, 2004 to June 30, 2005
        4-000-08-009-R          02/04/08   Recipient-Contracted Audit of USAID Agreements GPO-A­            633        QC
                                           00-05-00007-00 (ABY) and GPO-A-00-05-00014-00 (OVC)               25        UN
                                           with Hope worldwide South Africa for the period January 1
                                           to December 31, 2005
        4-656-08-010-R          02/07/08   Audit of USAID Resources Managed by Forum Empresarial             3         QC
                                           Para o Meio Ambiente (FEMA) under the Cooperative
                                           Agreement No. 656-A-00-00-00065-00 for the Year Ended
                                           September 30, 2003
        4-623-08-011-R          02/11/08   Audit of the Association for Strengthening Agricultural          25         QC
                                           Research in Eastern and Central Africa (ASARECA) Under
                                           Cooperative Agreement Number 623-A-00-02-00095-00 for
                                           the Year Ended December 31, 2006
        4-615-08-012-R          02/22/08   Audit of the USAID Grant to Nature Kenya under Award             703        QC
                                           Number CA-623-A-00-03-00038-00 for the Period from               697        UN
                                           January 1, 2005 to December 31, 2006
        4-674-08-013-R          02/25/08   Audit of USAID Cooperative Agreement No. 674-A-00-02­            392        QC
                                           00012-00 with Business Against Crime (BAC) from June 1,          353        UN
                                           2005 to May 31, 2006
        4-615-08-014-R          02/25/08   Audit of the USAID Grant to Kenya Agricultural Research
                                           Institute (KARI) under USAID Strategic Objective and
                                           Development Assistance Grant Agreement Number 615-007
                                           (PIL No. 3), Project Number 615-007 (PIL No. 7) and Project
                                           No. 615-0268 (PIL No. 51) for the year ended June 30, 2006
        4-623-08-015-R          02/28/08   Audit of the Centre for African Family Studies (CAFS) Under      25         QC
                                           Cooperative Agreement Number 623-A-00-02-00107-00 for            25         UN
                                           the Year Ended December 31, 2006


     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



28   SEMIANNUAL REPORT TO THE CONGRESS                                                                                    Appendix A
                                                                                                      Amount of
             Report     Date of                                                                        Findings           Type of
             Number     Report                             Report Title                                ($000s)            Findings
       4-612-08-016-R   03/03/08   Audit of USAID Resources Managed by the National                      86                  QC
                                   Smallholder Farmers Association of Malawi (NASFAM) under              34                  UN
                                   Cooperative Agreement Number 690-A-00-04-00087-00 for
                                   the period from October 1, 2005 to September 30, 2006
       4-674-07-017-R   12/11/07   Revised Transmission of the Recipient-Contracted Audit of             102                 QC
          (Revised)                USAID Subagreement M5-G-002 with Hope worldwide South                 102                 UN
                                   Africa for the Period January 1 to December 31, 2005
       4-615-08-017-R   03/07/08   Recipient Contracted Close-Out Audit of USAID Award
                                   No. 623-A-00-03-00041-00 Under Lea Toto Project to The
                                   Children of God Relief Institute Limited for the period
                                   August 20, 2003 to June 30, 2006
       4-615-08-018-R   03/07/08   Recipient Contracted Audit of USAID Award No. 623-A-00­
                                   06-00037-00 under Lea Toto Project to the Children of God
                                   Relief Institute Limited for the period July 1, 2006 to June 30,
                                   2007
       4-617-08-019-R   03/07/08   Recipient Contracted Audit of USAID Cooperative
                                   Agreement No. 617-A-00-05-00010-00 to Hospice Africa
                                   Uganda for the year ended March 31, 2007
       4-623-08-020-R   03/25/08   Recipient Contracted Audit of USAID Resources Managed                 520                 QC
                                   by Inter-Governmental Authority on Development                        520                 UN
                                   (IGAD)/Conflict Early Warning and Response Mechanism
                                   (CEWARN) Under Limited Scope Grant Agreement Award
                                   No. 6231006.01 – 40002 for the Year Ended December 31,
                                   2006
       5-388-08-001-R   10/17/07   Financial Audit of USAID/Bangladesh Cooperative
                                   Agreement No. 388-A-00-97-00032-00, Managed by the
                                   International Centre for Diarrhoeal Disease Research,
                                   Bangladesh (ICDDR,B), for the Period from January 1, 2003,
                                   to December 31, 2003
       5-388-08-002-R   10/17/07   Financial Audit of USAID/Bangladesh Cooperative                       30                  QC
                                   Agreement No. 388-A-00-97-00032-00, Managed by the
                                   International Centre for Diarrhoeal Disease Research,
                                   Bangladesh (ICDDR,B), for the Period from January 1, 2004,
                                   to December 31, 2004
       5-493-08-003-R   10/30/07   Financial Audit of the Accelerating Economic Recovery in              18                  QC
                                   Asia (AERA) Program, Managed by Kenan Foundation Asia
                                   (Kenan), USAID Cooperative Agreement No. 442-A-00-99­
                                   00072-00, for the Year Ended September 30, 2006
       5-493-08-004-R   11/05/07   Financial Audit of USAID Funds Managed by the Asian                   12                  QC
                                   Disaster Preparedness Center for the Period from January 1,
                                   2005, to December 31, 2005
       5-367-08-005-R   11/20/07   Financial Audit of the Program Enhancement of Emergency                7                  QC
                                   Response (PEER), USAID/Nepal Cooperative Agreement No.
                                   367-A-00-03-00075-00, Managed by the National Society for
                                   Earthquake Technology-Nepal (NSET), for the Period from
                                   October 1, 2005, to September 30, 2006
       5-442-08-006-R   11/28/07   Financial Audit of the Institutional Development and Service
                                   Delivery Support Project, USAID/Cambodia Cooperative
                                   Agreement No. 442-A-00-99-00033-00, Managed by the
                                   Reproductive Health Association of Cambodia, for the
                                   Period from January 1, 2006, to December 31, 2006
                                                                                                              BU--Better Use of Funds
                                                                                                              QC--Questioned Costs
                                                                                                              UN--Unsupported Costs
                                                                                                              Note: UN is part of QC


Appendix A                                                                             SEMIANNUAL REPORT TO THE CONGRESS                29
                                                                                                          Amount of
           Report               Date of                                                                    Findings   Type of
           Number               Report                             Report Title                            ($000s)    Findings
        5-483-08-007-R          12/07/07   Closeout Audit of the Development of Sustainable                   7         QC
                                           Aquaculture Project, Cooperative Agreement No. 388-A­
                                           00-00-00068-00, Managed by the WorldFish Center for the
                                           Period from January 1, 2005, to July 31, 2005
        5-386-08-008-R          01/09/08   Financial Audit of the AVERT Project, USAID/India Project         59         QC
                                           No. 386-0544, Managed by the AVERT Society, for the Period
                                           from April 1, 2005, to March 31, 2006
        5-493-08-009-R          01/15/08   Financial Audit of USAID Funds Managed by the Asian
                                           Disaster Preparedness Center for the Period from January 1,
                                           2006, to December 31, 2006
        5-492-08-010-R          01/18/08   Financial Audit of the Barangay Justice Service System
                                           Project, USAID/Philippines Grant Agreement No. 492-G­
                                           0098-00044-00, Managed by the Gerry Roxas Foundation,
                                           Inc., for the Period January 1, 2006, to December 31, 2006
        5-442-08-011-R          02/08/08   Financial Audit of Institutional Development/Maternal/Child
                                           Health/Reproductive Health, USAID/Cambodia Cooperative
                                           Agreement No. 493-A-00-04-00005-00, Managed by
                                           Reproductive and Child Health Alliance, for the Year Ended
                                           December 31, 2006
        5-388-08-012-R          02/21/08   Financial Audit of USAID/Bangladesh Cooperative                    5         QC
                                           Agreement No. 388-A-00-97-00032-00, Managed by the
                                           International Centre for Diarrhoeal Disease Research,
                                           Bangladesh (ICDDR,B), for the Period from January 1, 2005,
                                           to December 31, 2005
        5-388-08-013-R          02/22/08   Closeout Audit of USAID/Bangladesh Cooperative
                                           Agreement No. 388-A-00-97-00032-00, Managed by the
                                           International Centre for Diarrhoeal Disease Research,
                                           Bangladesh (ICDDR,B), for the Period from January 1, 2006,
                                           to June 30, 2006
        5-388-08-014-R          02/25/08   Closeout Financial Audit of USAID/Bangladesh Cooperative
                                           Agreement No. 388-G-00-02-00125-00, Managed by the
                                           International Centre for Diarrhoeal Disease Research,
                                           Bangladesh (ICDDR,B), for the Period from September 26,
                                           2002, to September 30, 2004
        5-492-08-015-R          03/27/08   Financial Audit of the Project Titled “Targeted Intervention
                                           Economic Reform and Governance – Institutional Grant
                                           for Policy Development,” USAID/Philippines Cooperative
                                           Agreement No. 492-A-00-04-00024-00, Managed by the
                                           Ateneo de Manila University (AdMU), for the Period from
                                           April 1, 2006, to March 31, 2007
        5-442-08-016-R          03/27/08   Financial Audit of the Support to Documentation Center             8         QC
                                           of Cambodia, USAID/Cambodia Cooperative Agreement
                                           No. 486-A-00-04-00012-00 and Victim of Torture,Asia
                                           Foundation Sub-grant Agreement No. 05-551-05-12504,
                                           Managed by the Documentation Center of Cambodia (DC-
                                           Cam), for the Years Ended December 31, 2006 and 2005
        6-278-08-001-R          02/28/08   Audit of the Fund Accountability Statement of USAID
                                           Resources Managed by Business Development Center Under
                                           Cooperative Agreement Number 278-A-00-06-00311-00,
                                           “TATWEER” Program, for the Period From November 21,
                                           2005, to November 30, 2006

     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



30   SEMIANNUAL REPORT TO THE CONGRESS                                                                                     Appendix A
                                                                                                    Amount of
             Report     Date of                                                                      Findings           Type of
             Number     Report                             Report Title                              ($000s)            Findings
       6-263-08-002-R   03/04/08   Audit of USAID Resources Managed and Expenditures
                                   Incurred by the Customs Reform Unit, USAID/Egypt Grant
                                   Agreement No. 263-0284, Implementation Letter No. 3, for
                                   the Period From January 1, 2006, to June 30, 2007
       6-263-08-003-R   03/30/08   Close-out Audit of USAID Resources Managed and
                                   Expenditures Incurred by the Ministry of Health and
                                   Population, Under Implementation Letter No. 2, Improving
                                   and Sustaining Population Program, Under Grant Agreement
                                   No. 263-0287, Element No. 5, for the Period From July 1,
                                   2004, to December 31, 2005
       6-294-08-006-N   03/11/08   Audit of the Fund Accountability Statement of USAID
                                   Resources Managed by American Jewish Joint Distribution
                                   Committee, Under Award No. 294-G-00-05-00222-00, Child
                                   Rehabilitation Initiative for Safety and Hope Project, for the
                                   Period from September 2, 2005, to September 1, 2006
       7-688-08-001-R   12/13/07   Audit of Local Currency Expenses of the Direction                   55                  QC
                                   Administrative et Financiere High Impact Health Services,           19                  UN
                                   Managed by the Ministry of Health, Mali, Grant Agreement
                                   No. 688-006-00, for the Period of October 1, 2003 through
                                   September 30, 2006
       7-685-08-001-N   11/30/07   Audit of the USAID Resources Managed by ASACASE under               519                 QC
                                   the Sustainable Increase of Income Generating Activities            498                 UN
                                   in Selected Sectors (No. 685-A-00182-00) for the Period
                                   August 2001 to August 2004 and the Casamance Recovery
                                   Development Program (No. 685-A-00-03-00104) in Senegal
                                   for the Period August 2003 to November 2005
       7-688-08-002-R   12/28/07   Audit of Local Currency Expenses Incurred by the Ministry           12                  QC
                                   of Education under the Youth Strategic Objective Agreement          12                  UN
                                   (SOAG) No. 688-0007, Mali for the Period of July 1, 2003
                                   through June 30, 2005
       8-000-08-001-R   10/19/07   Audit of Seven USAID-Funded Programs Implemented by
                                   Solidarites, for the Year Ended December 31, 2006
       8-000-08-002-R   10/22/07   Audit of the Association of Volunteers in International
                                   Service Rwanda for the Period April 4, 2005 through March
                                   31, 2006
       8-000-08-003-R   10/23/07   Audit of the Association of Volunteers in International
                                   Service Kenya for the Period April 1, 2005 through March 31,
                                   2006
       8-000-08-004-R   10/23/07   Audit of the Association of Volunteers in International
                                   Service Uganda for the Period April 1, 2005 throug h March
                                   31, 2006
       8-000-08-005-R   10/25/07   Audit of The Tuberculosis Coalition for Technical Assistance,      1,930                QC
                                   under USAID Award No. HRN-A-00-00-00018-00, for the                1,875                UN
                                   Year Ended September 30, 2004
       8-000-08-006-R   10/29/07   Audit of The Tuberculosis Coalition for Technical Assistance,      2,587                QC
                                   Under USAID Award No. HRN-A-00-00-00018-00, for the                2,546                UN
                                   Year Ended September 30, 2005
       8-000-08-007-R   12/05/07   Audit of Premiere Urgence, Under Multiple USAID                      3                  QC
                                   Agreements, for the Year Ended June 30, 2006                         2                  UN


                                                                                                            BU--Better Use of Funds
                                                                                                            QC--Questioned Costs
                                                                                                            UN--Unsupported Costs
                                                                                                            Note: UN is part of QC


Appendix A                                                                           SEMIANNUAL REPORT TO THE CONGRESS                31
                                                                                                            Amount of
           Report               Date of                                                                      Findings   Type of
           Number               Report                             Report Title                              ($000s)    Findings
        8-118-08-008-R          12/06/07   Audit of USAID-Funded Program Implemented by the
                                           Foundation for Information Policy Development in 2006
        8-118-08-009-R          12/12/07   Audit of USAID-Funded Programs Implemented by the
                                           Siberian Civic Initiatives Support Center in 2006
        8-118-08-010-R          12/17/07   Audit of USAID-Funded Programs Implemented by the
                                           Regional Public Organization the “Initiative” Kuzbass Center
                                           in 2006
        8-118-08-011-R          12/17/07   Audit of USAID-Funded Programs Implemented by the
                                           Krasnodar Regional Nonprofit Organization “Southern
                                           Regional Resource Center” in 2006
        8-118-08-012-R          12/21/07   Audit of USAID-Funded Programs Implemented by the
                                           Center of Fiscal Policy in 2006
        8-000-08-013-R          01/24/08   Audit of Oxfam (GB), Under Multiple USAID Agreements,               143        QC
                                           for the Year Ended April 30, 2004                                    47        UN


                                                --LOCAL CURRENCY TRUST FUND-­
       5-492-08-002-N           01/09/08   Financial Audit of USAID/Philippines’ Peso Trust Fund for
                                           Operating Expenses, for the Period from January 1, 2006, to
                                           December 31, 2006

                                                    --U.S.-BASED CONTRACTORS-­
       0-000-08-001-D           10/10/07   Jorge Scientific Corporation, Report on Audit of Fiscal Year
                                           2004 Incurred Costs
       0-000-08-002-D           10/10/07   Land O’ Lakes International Development Division, Report
                                           on Audit of Fiscal Year 2004 and 2005 Incurred Costs
       0-000-08-003-D           10/10/07   Juarez & Associates, Inc., Report on Audit of Fiscal Year 2004
                                           Incurred Costs
       0-000-08-004-D           10/10/07   Juarez & Associates, Inc., Report on Audit of Fiscal Year 2005
                                           Incurred Costs
       0-000-08-005-D           10/25/07   General Dynamics Network Systems, Inc. - Services                   32         QC
                                           Organization, Report on Audit of Fiscal Year 2004 Incurred
                                           Costs
       0-000-08-006-D           11/07/07   The Louis Berger Group, Inc. - International, Follow-Up Audit
                                           of Internal Controls of the Accounting System
       0-000-08-007-D           10/29/07   Abt Associates, Inc., Report on Audit of Fiscal Year 2002           43         QC
                                           Incurred Costs
       0-000-08-008-D           11/19/07   TCG International, LLC, Report on Audit of Fiscal Year 1999         11         QC
                                           Incurred Costs
       0-000-08-009-D           11/19/07   Sigma One Corporation, Report on Audit of Fiscal Year 2004
                                           Incurred Costs
       0-000-08-010-D           11/19/07   JBS International (formerly known as Aquirre International),
                                           Report on Audit of Fiscal Year 2004 Incurred Costs for Time
                                           and Material Contract No. FAO-I-00-99-00010-00
       0-000-08-011-D           11/19/07   CH2M Hill International Services, Inc. (CHIS), CH2M Hill            307        QC
                                           International, Ltd. (CHIL). CH2M Hill Europe - Middle East
                                           Region (EMR), Report on Final Indirect Rates and Corporate
                                           Home Office Allocations for Fiscal Year Ended December 31,
                                           2003
     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



32   SEMIANNUAL REPORT TO THE CONGRESS                                                                                       Appendix A
                                                                                                   Amount of
             Report     Date of                                                                     Findings           Type of
             Number     Report                            Report Title                              ($000s)            Findings
       0-000-08-012-D   11/19/07   CH2M HILL International Services, Inc. (CHIS), CH2M HILL           350                 QC
                                   International, Ltd. (CHIL), CH2M HILL Europe - Middle East
                                   Region (EMR), Report on Final Indirect Rates and Corporate
                                   Home Office Allocations for Fiscal Year Ended December 31,
                                   2004
       0-000-08-013-D   12/17/07   University Research Corporation, LLC/Center for Human              113                 QC
                                   Services, Supplement to Report on Audit of Fiscal Year 2003
                                   Incurred Costs
       0-000-08-014-D   01/18/08   Associates in Rural Development, Inc., Report on Audit of
                                   Fiscal Year 2004 Incurred Costs
       0-000-08-015-D   01/18/08   Deloitte Touche Tohmatsu Emerging Markets Group, Ltd.,              2                  QC
                                   Report on Audit of Fiscal Year 1998 Incurred Costs
       0-000-08-016-D   01/18/08   PA Government Services, Inc., Report on Audit of Fiscal Year       53                  QC
                                   2000 Incurred Costs
       0-000-08-017-D   01/18/08   PA Government Services, Inc., Report on Audit of Fiscal Year
                                   2001 Incurred Costs
       0-000-08-018-D   01/18/08   PA Government Services, Inc., Report on Audit of Fiscal Year
                                   2002 Incurred Costs
       0-000-08-019-D   01/18/08   IBM Global Business Services, Public Sector - Federal, Report     1,131                QC
                                   on Audit of Calendar Year 2004 Incurred Costs
       0-000-08-020-D   01/18/08   John Snow, Inc., Report on Audit of Calendar Year 2003 and
                                   2004 Incurred Costs
       0-000-08-021-D   01/18/08   Deloitte Touche Tohmatsu Emerging Markets Group, Ltd.,
                                   Report on Audit of Fiscal Year 1999 Incurred Costs
       0-000-08-022-D   01/18/08   Deloitte Touche Tohmatsu Emerging Markets Group, Ltd.,              5                  QC
                                   Report on Audit of Fiscal Year 2000 Incurred Costs
       0-000-08-023-D   01/18/08   Deloitte Touche Tohmatsu Emerging Markets Group, Ltd.,
                                   Report on Audit of Fiscal Year 2001 Incurred Costs
       0-000-08-025-D   02/22/08   Black & Veatch Corporation, Report on Review of Fiscal Year
                                   2003 Incurred Costs
       0-000-08-026-D   02/22/08   Metcalf & Eddy, Inc., Report on Audit of Fiscal Year 2005
                                   Incurred Costs
       0-000-08-029-D   11/19/07   Readiness Management Support L.C., Report on Audit of
                                   Equitable Adjustment Claim
       5-497-08-001-D   12/07/07   Evaluation of the Timekeeping and Labor Practices, Policies,        2                  QC
                                   and Procedures Employed by Parsons Global Services, Inc.
                                   for Employees Working in Indonesia to Implement the
                                   Aceh Tsunami Rehabilitation and Reconstruction Program,
                                   USAID/Indonesia Contract No. 497-C-00-6-0004-00, for the
                                   Period from November 12 to November 21, 2006
       5-306-08-001-N   11/27/07   Financial Audit of Local Costs Incurred by the Louis Berger
                                   Group, Inc. to Implement the Rehabilitation of Economic
                                   Facilities and Services Program, USAID/Afghanistan Contract
                                   No. 306-C-00-02-00500-00, for the Period from April 1,
                                   2007, to June 30, 2007




                                                                                                           BU--Better Use of Funds
                                                                                                           QC--Questioned Costs
                                                                                                           UN--Unsupported Costs
                                                                                                           Note: UN is part of QC


Appendix A                                                                           SEMIANNUAL REPORT TO THE CONGRESS               33
                                                                                                          Amount of
           Report               Date of                                                                    Findings   Type of
           Number               Report                            Report Title                             ($000s)    Findings
       5-497-08-002-D           01/07/08   Evaluation of the Timekeeping and Labor Practices, Policies,
                                           and Procedures Employed by Chemonics International, Inc.
                                           for Their Employees Working in Indonesia, USAID/Indonesia
                                           Contract No.AFP I-01-04-00002-00, for the Period from
                                           November 14 to November 17, 2006
       6-294-08-001-N           10/29/07   Examination Procedures Related to InterBuilMat, Inc.
                                           Compliance With Terms and Conditions of USAID Contract
                                           No. 294-C-00-03-00222-00, for the Period From September
                                           17, 2003, to November 30, 2004
       6-294-08-002-N           11/28/07   Examination Procedures Related to Corcel Corp.
                                           Compliance with Terms and Conditions of USAID Contract
                                           No. 294-C-00-03-00223-00, for the Period from September
                                           17, 2003, to June 30, 2005
       6-294-08-003-N           11/28/07   Examination Procedures Related to Corcel Corp.
                                           Compliance with Terms and Conditions of USAID Contract
                                           No. 294-C-00-03-00224-00, for the Period from September
                                           17, 2003, to June 30, 2005
       6-294-08-004-N           01/29/08   Close-Out Audit of the Cost Representation Statement
                                           of USAID Resources Managed by Financial Markets
                                           International, Under Task Order No. PCE-I-806-99-00010-00,
                                           Financial Markets Reform Program - Phase II for USAID/
                                           West Bank and Gaza for the Period from October 1, 2005,
                                           to July 25, 2006
       6-294-08-007-N           03/24/08   Audit of USAID Resources Managed by Chemonics                     12         QC
                                           International Inc. Under Contract No. PCE-I-00-98-00015­
                                           00,“Palestinian Integrated Trade Arrangement” Project, for
                                           the Period from September 29, 2005, to September 28, 2006
       8-111-08-001-N           10/25/07   Agency-Contracted Audit of PA Government Services, Inc.           85         QC
                                           - Armenia for Contract Numbers LAG-I-824-98-00005, EPP­           65         UN
                                           I-800-03-I0008, and LAG-I-818-99-00019 for Period July 26,
                                           2001 to December 31, 2005
       E-267-08-001-D           10/04/07   Audit of Direct Costs Incurred and Billed by Research             38         QC
                                           Triangle Institute Under Contract No. GHS-I-04-03-00028­
                                           00 from April 26, 2005 to December 31, 2006
       E-267-08-002-D           12/17/07   Audit of Costs Incurred and Billed by Sallyport Global
                                           Services Ltd. under Its Subcontracts with the Louis Berger
                                           Group, Inc. under USAID Contract Nos. 267-C-00-04­
                                           00417-00 for the Period September 27, 2004 through
                                           September 30, 2005 and 267-C-00-04-00435-00 for the
                                           Period August 1, 2005 through March 31, 2007
       E-267-08-003-D           01/23/08   Audit of Costs Incurred and Billed by America’s                   32         QC
                                           Development Foundation under Contract No. GEW-C-00­
                                           04-00001-00 from October 1, 2006 through June 30, 2007
       E-267-08-004-D           02/04/08   Audit of Costs Incurred and Billed by Creative Associates         167        QC
                                           International, Inc. under Contract No. EPP-C-00-04-00004­
                                           00 from July 1, 2005 through February 28, 2007
       E-267-08-005-D           02/04/08   Audit of Costs Incurred and Billed by Management Systems          95         QC
                                           International Under Contract No.AEP-I-00-00-00024-00,             14         UN
                                           Task No. 08, from June 26, 2003 through May 31, 2005



     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



34   SEMIANNUAL REPORT TO THE CONGRESS                                                                                     Appendix A
                                                                                                   Amount of
             Report     Date of                                                                     Findings           Type of
             Number     Report                             Report Title                             ($000s)            Findings
       E-267-08-006-D   02/12/08   Audit of Costs Incurred and Billed by Bechtel National, Inc.       72                  QC
                                   under Contract Nos. EEE-C-00-03-00018-00 (Phase I) and
                                   SPU-C-00-04-00001-00 (Phase II) from November 1, 2006 to
                                   September 30, 2007
       E-267-08-007-D   02/24/08   Audit of Costs Incurred and Billed by IntraHealth
                                   International, Inc. under its Subcontract No. 15-330-0208954
                                   with Research Triangle Institute Contract No. GHS-I-04-03­
                                   00028-00 for the Period April 26, 2005 through December
                                   31, 2006
       E-267-08-008-D   03/06/08   Audit of Costs Incurred and Billed by International Business        1                  QC
                                   and Technical Consultants, Inc. (IBTCI) under Contract
                                   No. 267-C-00-05-00508-00 from January 1, 2006 through
                                   December 31, 2006

                                                --U.S. BASED GRANTEES-­
       0-000-08-001-E   10/22/07   Report on Audit of the Albanian-American Enterprise Fund
                                   for the Fiscal Year Ended September 30, 2004
       0-000-08-001-T   10/15/07   Review of the Audit Report for Salesian Mission, Inc. for the
                                   Fiscal Year Ending December 31, 2003
       0-000-08-002-E   11/20/07   Report on Audit of the Western NIS Enterprise Fund for the
                                   Fiscal Year Ended September 30, 2004
       0-000-08-002-T   10/23/07   CARE USA,A-133 Audit Report for Fiscal Year Ending June           7,171                QC
                                   30, 2005                                                          7,085                UN
       0-000-08-003-E   11/26/07   Report on Audit of the Western NIS Enterprise Fund for the
                                   Fiscal Year Ended September 30, 2005
       0-000-08-003-T   10/23/07   Desk Review for Innovative Resources Management, Inc., for
                                   the Fiscal Year Ending December 31, 2003
       0-000-08-004-E   01/04/08   Report on Audit of the Albanian-American Enterprise Fund
                                   for the Fiscal Year Ended September 30, 2005
       0-000-08-004-T   10/23/07   CHF International and Related Entities,A-133 Audit Report          309                 QC
                                   for Fiscal Year Ending September 30, 2005
       0-000-08-005-T   11/06/07   A-133 Initial Review of the Gorgas Memorial Institute of
                                   Tropical and Preventive Medicine, Inc. for Fiscal Year Ending
                                   September 30, 2003
       0-000-08-006-T   11/06/07   The Vaccine Fund,A-133 Audit Report for Fiscal Year Ending
                                   December 31, 2004
       0-000-08-007-T   11/07/07   Desk Review for Fudan Foundation, for the Fiscal Years
                                   Ending December 31, 2004 and 2003
       0-000-08-008-T   11/07/07   Review of Audit Report for the Eurasia Foundation and
                                   Affiliate, for Fiscal Year Ending September 30, 2003
       0-000-08-009-T   01/18/08   Opportunity International, Inc. and Affiliates, A-133 Audit        69                  QC
                                   Report for Fiscal Year Ending December 31, 2005                    45                  UN

       0-000-08-010-T   01/31/08   National Democratic Institute for International Affairs for
                                   the Fiscal Years Ending September 30, 2006 and September
                                   30, 2005




                                                                                                           BU--Better Use of Funds
                                                                                                           QC--Questioned Costs
                                                                                                           UN--Unsupported Costs
                                                                                                           Note: UN is part of QC


Appendix A                                                                            SEMIANNUAL REPORT TO THE CONGRESS              35
                                                                                                         Amount of
           Report               Date of                                                                   Findings   Type of
           Number               Report                            Report Title                            ($000s)    Findings
        0-000-08-011-T          01/31/08   Shelter for Life International, Inc.,A-133 Audit Report for      221        QC
                                           Fiscal Years Ending December 31, 2004 and December 31,
                                           2005
        0-000-08-012-T          02/06/08   Review of Audit Report for Counterpart International, Inc.
                                           for Fiscal Year Ending September 30, 2005
        0-000-08-013-T          02/06/08   Review of Audit Report for International City/County
                                           Management Association for Fiscal Year Ending June 30, 2003
        0-000-08-014-T          03/05/08   Review of the Audit Report for Academy for Educational
                                           Development, for the Year Ending December 31, 2006
       6-294-08-005-N           02/26/08   Audit of the Fund Accountability Statement of USAID              52         QC
                                           Resources Managed by America-Mideast Education and
                                           Training Services Under Cooperative Agreement Number
                                           294-A-00-05-00234-00 “International Faculty Development
                                           Program” for the Period from September 29, 2005, to
                                           September 28, 2006




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



36   SEMIANNUAL REPORT TO THE CONGRESS                                                                                    Appendix A
                         FINANCIAL AUDIT REPORTS ISSUED

                         October 1, 2007 through March 31, 2008


                      U.S. AFRICAN DEVELOPMENT FOUNDATION
                                                                                             Amount of
             Report      Date of                                                              Findings       Type of
             Number      Report                           Report Title                        ($000s)        Findings
                                          --PROGRAMS AND OPERATIONS-­
       0-ADF-08-002-C    11/14/07   Audit of the U.S.African Development Foundation’s
                                    Financial Statements for Fiscal Years 2007 and 2006




                                INTER-AMERICAN FOUNDATION

                                                                                             Amount of
             Report      Date of                                                              Findings        Type of
             Number      Report                           Report Title                        ($000s)         Findings
                                          --PROGRAMS AND OPERATIONS-­
        0-IAF-08-003-C   11/14/07   Audit of the Inter-American Foundation’s Financial
                                    Statements for Fiscal Years 2007 and 2006




                                                                                                  BU--Better Use of Funds
                                                                                                  QC--Questioned Costs
                                                                                                  UN--Unsupported Costs
                                                                                                  Note: UN is part of QC


Appendix A                                                                        SEMIANNUAL REPORT TO THE CONGRESS         37
                    USAID PERFORMANCE AUDIT REPORTS ISSUED

                        October 1, 2007 through March 31, 2008

                                                                                                        Amount of
            Report              Date of                                                                  Findings   Type of
            Number              Report                           Report Title                            ($000s)    Findings
                                                   --ECONOMY AND EFFICIENCY-­
         1-524-08-001-P         10/03/07   Audit of USAID/Nicaragua’s Economic Growth Program             1,750       BU

         1-511-08-002-P         02/29/08   Audit of USAID/Bolivia’s Economic Opportunities Program
         1-527-08-003-P         03/25/08   Follow-Up Audit of USAID/Peru’s Alternative Development        4,332       QC
                                           Program
         4-654-08-001-P         11/21/07   Audit of USAID/Angola’s Implementation of the President’s
                                           Malaria Initiative
         4-687-08-002-P         03/14/08   Audit of USAID/Madagascar’s Biologically Diverse Forest
                                           Ecosystem Conservation Activities
         5-306-08-001-P         01/22/08   Audit of USAID/Afghanistan’s Agriculture, Rural Investment
                                           and Enterprise Strengthening Program
         5-497-08-002-P         01/31/08   Audit of USAID/Indonesia’s Tsunami-Related Housing
                                           Construction Activities Implemented by Cooperative
                                           Housing Foundation International
         5-306-08-003-P         03/17/08   Audit of USAID/Afghanistan’s Alternative Development
                                           Program-Southern Region
         5-391-08-004-P         03/28/08   Audit of USAID/Pakistan’s Education Sector Reform
                                           Assistance Program
         6-294-08-001-P         12/10/07   Audit of USAID/West Bank and Gaza’s Implementation of
                                           Executive Order 13224, Blocking Property and Prohibiting
                                           Transactions with Persons Who Commit,Threaten to
                                           Commit, or Support Terrorism
         6-294-08-002-P         12/10/07   Audit of USAID/West Bank and Gaza’s Assistance to
                                           Al-Quds University, the Islamic University in Gaza, and
                                           American Near East Refugee Aid
         6-279-08-003-P         02/10/08   Audit of USAID Assistance for the Basic Education
                                           Program in Yemen
         7-613-08-001-P         10/24/07   Audit of USAID/Zimbabwe’s Implementation of the
                                           President’s Emergency Plan for AIDS Relief
         7-620-08-002-P         11/05/07   Audit of USAID/Nigeria’s Microfinance Activities
         7-685-08-003-P         11/29/07   Follow-up Audit of USAID/Senegal’s Monitoring of Selected
                                           Agriculture and Natural Resources Management Activities
         7-685-08-004-P         12/28/07   Followup Audit of USAID/Senegal’s Contracting Operations
         8-182-08-001-P         02/29/08   Audit of USAID/Albania’s Economic Restructuring and
                                           Agriculture Development Program
         9-000-08-001-P         11/06/07   Audit of the Adequacy of USAID’s Antiterrorism Vetting
                                           Procedures
         9-000-08-002-P         12/12/07   Audit of USAID’s New Partners Initiative Created Under
                                           the President’s Emergency Plan for AIDS Relief




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



38   SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
                                                                                                  Amount of
             Report      Date of                                                                   Findings       Type of
             Number      Report                           Report Title                             ($000s)        Findings
        9-000-08-004-P   01/24/08   Followup Audit on Recommendations Included in the
                                    Audit of Selected USAID Bureaus’ Training, Use and
                                    Accountability of Cognizant Technical Officers
        9-000-08-005-P   02/08/08   Audit of USAID’s Effectiveness in Complying with Tiahrt
                                    Voluntary Family Planning Requirements
        9-000-08-006-P   03/28/08   Audit of USAID/Morocco’s Democracy and Governance
                                    Activities
        A-000-08-001-P   11/14/07   Audit of USAID’s Security Controls Over Financial
                                    Management and General Support Systems for Fiscal Year
                                    2007
        A-000-08-002-P   01/11/08   Phoenix Post Implementation Audit of USAID Mission
                                    Users’ Needs
        A-000-08-003-P   01/28/08   Audit of Application Controls for USAID/Global Health
                                    Bureau’s Field Support-Aid System
        A-000-08-004-P   02/06/08   Audit of USAID’s Implementation of Selected Homeland
                                    Security Presidential Directive 12 (HSPD-12) Requirements
                                    for Personal Identity Verification of Federal Employees and
                                    Contractors
        E-267-08-001-P   03/18/08   Audit of USAID/Iraq’s Community Stabilization Program             40             QC
                                                                                                    8,541            BU




                                                                                                      BU--Better Use of Funds
                                                                                                      QC--Questioned Costs
                                                                                                      UN--Unsupported Costs
                                                                                                      Note: UN is part of QC


Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS              39
                                PERFORMANCE AUDIT REPORTS ISSUED

                                  October 1, 2007 through March 31, 2008


                                     INTER-AMERICAN FOUNDATION

                                                                                                      Amount of
           Report                Date of                                                               Findings   Type of
           Number                Report                          Report Title                          ($000s)    Findings
                                                   --ECONOMY AND EFFICIENCY-­
        9-000-08-003-P           12/31/07   Audit of the Inter-American Foundation’s Implementation
                                            of the Government Performance and Results Act




     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



40   SEMIANNUAL REPORT TO THE CONGRESS                                                                                 Appendix A
                        USAID MISCELLANEOUS REPORTS ISSUED

                          October 1, 2007 through March 31, 2008

                                                                                                   Amount of
             Report        Date of                                                                  Findings       Type of
             Number        Report                           Report Title                            ($000s)        Findings
                                            --QUALITY CONTROL REVIEWS-­
       0-000-08-001-Q      12/20/07   Quality Control Review of Grant Thornton LLP’s Audit of
                                      International Research & Exchanges Board, Inc. Fiscal Year
                                      Ended June 30, 2005
       4-663-08-001-Q      02/07/08   Quality Control Review of the Audit of the Amhara
                                      National Regional State Bureau of Agriculture and Rural
                                      Development (BOARD) under Strategic Objective Grant
                                      Agreement (SOAG) No. 663-007, for the Period July 8,
                                      2003 to February 28, 2005
       4-663-08-002-Q      02/07/08   Quality Control Review of the Audit of the Amhara
                                      National Regional State Bureau of Agriculture and Rural
                                      Development (BOARD) under Strategic Objective Grant
                                      Agreement (SOAG) No. 663-016, for the Period June 30, to
                                      November 30, 2005
       5-388-08-001-Q      10/17/07   Quality Control Review of the Audit Report and Audit
                                      Documentation for the Financial Audit Conducted by Hoda
                                      Vasi Chowdhury & Co. of USAID/Bangladesh Cooperative
                                      Agreement No. 388-A-00-97-00032-00, Managed by the
                                      International Centre for Diarrhoeal Disease Research,
                                      Bangladesh (ICDDR,B), for the Period from January 1, 2004,
                                      to December 31, 2004
       5-388-08-002-Q      10/19/07   Quality Control Review of the Audit Documentation and
                                      the Audit Report for the Financial Audit Conducted by
                                      Rahman Rahman Huq, of the Studies on Arsenic Project,
                                      USAID/Bangladesh Grant Agreement No. 388-G-00­
                                      02-00125-00, Managed by the International Centre for
                                      Diarrhoeal Disease Research, Bangladesh (ICDDR,B), for
                                      the Period from September 26, 2002, to September 30,
                                      2004
       5-493-08-003-Q      10/30/07   Quality Control Review of the Audit Report and Audit
                                      Documentation for the Financial Audit Conducted by
                                      KPMG Phoomchai Audit Ltd., of Accelerating Economic
                                      Recovery in Asia (AERA) Program, Managed by Kenan
                                      Foundation Asia (Kenan), USAID Cooperative Agreement
                                      No. 442-A-00-99-00072-00, for the Year Ended September
                                      30, 2006
       5-493-08-004-Q      11/05/07   Quality Control Review of the Audit Report and Audit
                                      Documentation for the Financial Audit Conducted by
                                      KPMG Phoomchai Audit Ltd. of USAID Funds Managed
                                      by the Asian Disaster Preparedness Center for the Period
                                      from January 1, 2005, to December 31, 2005




                                                                                                       BU--Better Use of Funds
                                                                                                       QC--Questioned Costs
                                                                                                       UN--Unsupported Costs
                                                                                                       Note: UN is part of QC


Appendix A                                                                          SEMIANNUAL REPORT TO THE CONGRESS            41
                 AFGHANISTAN AND IRAQ AUDIT REPORTS ISSUED

                      October 1, 2007 through March 31, 2008

                                                                                                          Amount of     Type
           Report               Date of                                                                    Findings      of
           Number               Report                        Report Title                                 ($000s)    Findings
                                                         --AFGHANISTAN-­
        5-306-08-001-N          11/27/07   Financial Audit of Local Costs Incurred by the Louis Berger
                                           Group, Inc. to Implement the Rehabilitation of Economic
                                           Facilities and Services Program, USAID/Afghanistan Contract
                                           No. 306-C-00-02-00500-00, for the Period from April 1,
                                           2007, to June 30, 2007
        5-306-08-001-P          01/22/08   Audit of USAID/Afghanistan’s Agriculture, Rural Investment
                                           and Enterprise Strengthening Program
        5-306-08-003-P          03/17/08   Audit of USAID/Afghanistan’s Alternative Development
                                           Program-Southern Region
                                                                --IRAQ-­
        E-267-08-001-D          10/04/07   Audit of Direct Costs Incurred and Billed by Research             38         QC
                                           Triangle Institute Under Contract No. GHS-I-04-03-00028­
                                           00 from April 26, 2005 to December 31, 2006
        E-267-08-002-D          12/17/07   Audit of Costs Incurred and Billed by Sallyport Global
                                           Services Ltd. under Its Subcontracts with the Louis Berger
                                           Group, Inc. under USAID Contract Nos. 267-C-00-04­
                                           00417-00 for the Period September 27, 2004 through
                                           September 30, 2005 and 267-C-00-04-00435-00 for the
                                           Period August 1, 2005 through March 31, 2007
        E-267-08-003-D          01/23/08   Audit of Costs Incurred and Billed by America’s                   32         QC
                                           Development Foundation under Contract No. GEW-C-00­
                                           04-00001-00 from October 1, 2006 through June 30, 2007
        E-267-08-004-D          02/04/08   Audit of Costs Incurred and Billed by Creative Associates         167        QC
                                           International, Inc. under Contract No. EPP-C-00-04-00004­
                                           00 from July 1, 2005 through February 28, 2007
        E-267-08-005-D          02/04/08   Audit of Costs Incurred and Billed by Management Systems          95         QC
                                           International Under Contract No.AEP-I-00-00-00024-00,             14         UN
                                           Task No. 08, from June 26, 2003 through May 31, 2005
        E-267-08-006-D          02/12/08   Audit of Costs Incurred and Billed by Bechtel National, Inc.      72         QC
                                           under Contract Nos. EEE-C-00-03-00018-00 (Phase I) and
                                           SPU-C-00-04-00001-00 (Phase II) from November 1, 2006 to
                                           September 30, 2007
        E-267-08-007-D          02/24/08   Audit of Costs Incurred and Billed by IntraHealth
                                           International, Inc. under its Subcontract No. 15-330-0208954
                                           with Research Triangle Institute Contract No. GHS-I-04-03­
                                           00028-00 for the Period April 26, 2005 through December
                                           31, 2006
        E-267-08-008-D          03/06/08   Audit of Costs Incurred and Billed by International Business       1         QC
                                           and Technical Consultants, Inc. (IBTCI) under Contract
                                           No. 267-C-00-05-00508-00 from January 1, 2006 through
                                           December 31, 2006
        E-267-08-001-P          03/18/08   Audit of USAID/Iraq’s Community Stabilization Program              40        QC
                                                                                                            8,541       BU



     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



42   SEMIANNUAL REPORT TO THE CONGRESS                                                                                       Appendix A
                       AUDIT REPORTS OVER SIX MONTHS OLD

                        WITH NO MANAGEMENT DECISION*


                                          As of March 31, 2008

                                                                                          Desired
                                                                                          Decision
        Report                               Issue             Current                     Target
        Number              Auditee          Date        Recommendation Status              Date




                                            NOTHING TO REPORT




      *Applies to USAID, USADF, and IAF




Appendix B                                                      SEMIANNUAL REPORT TO THE CONGRESS    43
                        SIGNIFICANT AUDIT RECOMMENDATIONS

                         DESCRIBED IN PREVIOUS SEMIANNUAL

                           REPORTS WITHOUT FINAL ACTION

                                  As of March 31, 2008


                                                                 USAID

                                                                                                 Management   Final Action
       Report                                                                   Issue     Rec.    Decision       Target
       Number                         Subject of Report                         Date      No.       Date          Date
     9-000-06-003-P   USAID’s Reasonable Accommodation Policies and            12/13/05    3       12/13/05      06/08
                      Procedures
     A-000-06-001-P   USAID’s Information Technology Governance Over           02/21/06    2       02/21/06      06/08
                      Its Phoenix Overseas Deployment and Procurement
                      System Improvement Program Projects                                  3       02/21/06      06/08

                                                                                           4       02/21/06      06/08

                                                                                           5       02/21/06      06/08

                                                                                           6       02/21/06      06/08
     4-615-06-011-P   USAID/Kenya’s Compliance with Financial Audit            07/31/06    5       10/13/06      04/08
                      Requirements Regarding Foreign Recipients
                                                                                           7       07/31/06      04/08
     4-656-06-015-P   USAID/Mozambique’s Compliance with Financial Audit       09/22/06    4       09/22/06      05/08
                      Requirements Regarding Foreign Recipients
                                                                                           7       09/22/06      05/08
     0-000-07-001-C   USAID’s Financial Statements for Fiscal Years 2006 and   11/15/06   2.2      11/15/06      04/08
                      2005
                                                                                           4       11/15/06      04/08
     7-624-07-001-P   USAID/West Africa’s Management of the P.L. 480 Non-      02/27/07    1       02/27/07      04/08
                      Emergency Monetization Program in Burkina Faso
                                                                                           2       02/27/07      04/08

                                                                                           3       02/27/07      04/08
     5-306-07-006-P   Audit of USAID/Afghanistan’s Urban Water and             06/07/07    1       06/07/07      04/08
                      Sanitation Program
                                                                                           2       06/07/07      04/08

                                                                                           4       06/07/07      04/08




44   SEMIANNUAL REPORT TO THE CONGRESS                                                                               Appendix C
                                                                                                Management    Final Action
        Report                                                               Issue       Rec.    Decision        Target
        Number                        Subject of Report                      Date        No.       Date           Date
     A-000-07-003-P   Audit of Compliance of Selected USAID Websites        07/16/07       1      07/16/07       05/08
                      with Specific Requirements of Section 207(f) of the
                      E-Government Act of 2002                                             2      07/16/07       05/08

                                                                                           3      07/16/07       05/08

                                                                                           4      07/16/07       05/08

                                                                                           5      07/16/07       05/08

                                                                                           6      07/16/07       05/08

                                                                                           7      07/16/07       05/08

                                                                                           8      07/16/07       05/08
     A-000-07-004-P   Audit of USAID’s Pre-Deployment Activities for Its    07/19/07       1      07/19/07       10/08
                      Global Acquisition System
                                                                                           2      07/19/07       07/08

                                                                                           3      07/19/07       07/08

                                                                                           5      07/19/07       04/08

                                                                                           6      07/19/07       04/08
     8-118-07-004-P   Audit of USAID/Russia’s Implementation of the         08/10/07       1      08/10/07       06/08
                      President’s Emergency Plan for AIDS Relief
     5-442-07-010-P   Audit of USAID/Cambodia’s Implementation of the       09/18/07       1      09/18/07       05/08
                      President’s Emergency Plan for AIDS Relief
                                                                                           3      09/18/07       05/08
     4-612-07-011-P   Audit of USAID/Malawi’s Implementation of the         09/21/07       1      09/21/07       09/08
                      President’s Emergency Plan for AIDS Relief
                                                                                           2      09/21/07       09/08

                                                                                           3      09/21/07       09/08

                                                                                           4      09/21/07       09/08

                                                                                           5      09/21/07       09/08

                                                                                           6      10/03/07       09/08




Appendix C                                                                             SEMIANNUAL REPORT TO THE CONGRESS     45
                                                                                            Management   Final Action
       Report                                                              Issue     Rec.    Decision       Target
       Number                          Subject of Report                   Date      No.       Date          Date
     9-516-07-009-P   Audit of USAID’s Cuba Program                       09/25/07    1       10/26/07      09/08

                                                                                      2       09/25/07      09/08

                                                                                      3       09/25/07      09/08

                                                                                      5       09/25/07      09/08

                                                                                      7       09/25/07      09/08

                                                                                      8       09/25/07      09/08

                                                                                      9       09/25/07      09/08

                                                                                     10       10/26/07      04/08

                                                                                     11       09/25/07      04/08

                                                                                     12       09/25/07      04/08
     E-267-07-008-P   Audit of USAID/Iraq’s Participation in Provincial   09/27/07    1       09/27/07      04/08
                      Reconstruction Teams in Iraq
                                                                                      2       09/27/07      04/08




46   SEMIANNUAL REPORT TO THE CONGRESS                                                                          Appendix C
                 U.S. AFRICAN DEVELOPMENT FOUNDATION


                                                                   Management    Final Action
        Report                                              Rec.    Decision        Target
        Number        Subject of Report       Issue Date    No.       Date           Date




                                   NOTHING TO REPORT





                     INTER-AMERICAN FOUNDATION


                                                                   Management    Final Action
        Report                                              Rec.    Decision        Target
        Number        Subject of Report       Issue Date    No.       Date           Date




                                   NOTHING TO REPORT





Appendix C                                                 SEMIANNUAL REPORT TO THE CONGRESS    47
                             REPORTS ISSUED WITH QUESTIONED

                                 AND UNSUPPORTED COSTS

                                                           USAID

                               October 1, 2007 through March 31, 2008

                                                                  NUMBER OF             QUESTIONED           UNSUPPORTED
                           REPORTS                               AUDIT REPORTS             COSTS                COSTS1
     A. For which no management decision had been made                 78                $34,738,1462,3       $12,438,0612,3
        as of October 1, 2007

     B. Add: Reports issued October 1, 2007 through                       71              $33,410,1154         $21,691,0264
        March 31, 2008

                 Subtotal                                                149              $68,148,261           $34,129,087

     C. Less: Reports with a management decision made                    965              $32,368,9386         $14,923,1136
        October 1, 2007 through March 31, 2008

            i.   Value of Recommendations Disallowed by                                    $9,419,726           $1,897,653
                 Agency Officials

            ii. Value of Recommendations Allowed by Agency                                $22,949,212           $13,025,460
                 Officials
     D. For which no management decision had been made                    40              $35,779,3237         $19,205,9747
        as of March 31, 2008

        1
         Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by
        the Inspector General Act Amendments of 1988 (P.L. 100-504).

        2
         The ending balance at September 30, 2007, for Questioned Costs totaling $35,847,567 was decreased by
        $1,109,421 to reflect adjustments in prior period recommendations due to additional audit work performed; the
        ending balance at the same period for Unsupported Costs of $12,565,658 was decreased by $127,597 for the
        same reason.

        3
         Amounts include $5,604,770 in Questioned Costs and $2,927,552 in Unsupported Costs for audits performed
        for the OIG by other federal audit agencies.

        4
         Amounts include $2,453,257 in Questioned Costs and $14,116 in Unsupported Costs for audits performed for
        the OIG by other federal audit agencies.

        5
         Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports
        counted here are again counted in the figure below it.

        6
         Amounts include $9,945,266 in Questioned Costs and $2,927,552 in Unsupported Costs for audits performed
        for the OIG by other federal audit agencies.

        7
         Amounts include $1,895,920 in Questioned Costs and $14,116 in Unsupported Costs for audits performed for
        the OIG by other federal audit agencies.




48   SEMIANNUAL REPORT TO THE CONGRESS                                                                                    Appendix D
                       REPORTS ISSUED WITH RECOMMENDATIONS

                          THAT FUNDS BE PUT TO BETTER USE

                                                            USAID

                               October 1, 2007 through March 31, 2008

                                                                               NUMBER OF
                                     REPORTS                                  AUDIT REPORTS      DOLLAR VALUES
     A.   For which no management decision had been made as of                      1              $12,700,000
          October 1, 2007

     B. Add: Reports issued October 1, 2007 through March 31, 2008                  2              $10,291,076

                  Subtotal                                                          3              $22,991,076

     C.   Less: Reports with a management decision made October 1, 2007             2              $14,450,000
          through March 31, 2008

             i.   Value of Recommendations Agreed to by Agency Officials                            $8,600,000

             ii. Value of Recommendations Not Agreed to by Agency Officials                         $5,850,000

     D.   For which no management decision had been made as of                      1               $8,541,076
          March 31, 2008




Appendix E                                                                      SEMIANNUAL REPORT TO THE CONGRESS   49
          U.S.Agency for International Development 

                 Ofﬁce of Inspector General 

                 1300 Pennsylvania Avenue, NW 

                          Room 6.6D 

                    Washington, DC 20523


                        www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

        www.usaid.gov/oig/public/semiann/semiannual1.htm

